      Semiannual
Report to Congress
APRIL 1, 2008 – SEPTEMBER 30, 2008
Table of Contents

From the Inspector General. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iii
Audits and Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
  Aviation and Special Programs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
  In Focus: Maintaining the National Airspace System While Transitioning
       to the Next Generation Air Transportation System. . . . . . . . . . . . . . . . . . . . . . 1
  Highway and Transit Programs. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
  In Focus: Fraud Awareness and Educational Outreach Efforts
       Help Deliver Organizational Excellence . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
  Rail and Maritime Programs and Economic Analysis . . . . . . . . . . . . . . . . . . . . . . 25
  Financial and Information Technology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
  Acquisition and Procurement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31
  Department-Wide Issues. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33
Work Planned and in Progress . . . . . . . . . . . . . . . . . . . . . . . . . . .35
  Aviation and Special Programs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35
  Highway and Transit Programs. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37
  Rail and Maritime Programs and Economic Analysis . . . . . . . . . . . . . . . . . . . . . . 38
  Financial and Information Technology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39
  Acquisition and Procurement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 40
Statistical Performance Data . . . . . . . . . . . . . . . . . . . . . . . . . . . . 41
  Summary of Performance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 41
  Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 42
  Completed OIG Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 42
  OIG Reports with Recommendations that Questioned Costs . . . . . . . . . . . . . . . . 43
  OIG Reports with Recommendations that Funds Be Put to Better Use. . . . . . . .44
  OIG Reports Recommending Changes for Safety, Economy, or Efficiency . . . . . 45
  Management Decisions Regarding OIG Recommendations . . . . . . . . . . . . . . . . . 46
  OIG Published Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 47
  Other Audit Work Products . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 53
  Office of Inspector General Congressional Testimonies . . . . . . . . . . . . . . . . . . . . 55
  Unresolved Recommendations Over 6 Months Old . . . . . . . . . . . . . . . . . . . . . . . . 56
  Application of Audit Resources by Operating Administration . . . . . . . . . . . . . . . 57
  Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 59
  Judicial and Administrative Actions. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 59
  Profile of All Pending Investigations as of September 30, 2008. . . . . . . . . . . . . . . 60
  Application of Investigative Project Hours by Operating Administration . . . . . 61
  Application of Investigative Project Hours by Priority Area . . . . . . . . . . . . . . . . . 61
Mission and Organization . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .63
Contacts. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .65
Abbreviations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 67




                                                                                                                                            Table of Contents   i
                               From the Inspector General




I
    t is my pleasure to present the Department of Transportation, Office of Inspector General’s
    Semiannual Report to Congress for the 6-month period ending September 30, 2008. As the
    noteworthy activities described in this report clearly illustrate, DOT/OIG employees continue to
produce the highest quality audits and investigations that support and assist DOT in meeting its top
priorities of keeping the traveling public safe, increasing their mobility, and having our transportation
system contribute to the nation’s economic growth.

During this semiannual period, we issued 42 reports with 145 recommendations, including financial
recommendations totaling nearly $225 million. Our investigative work resulted in 57 convictions and a
total of nearly $2.7 million in fines, restitutions, and recoveries.

We produced audit reports on significant safety issues in aviation such as the air carriers’ outsourcing
of aircraft maintenance and near mid-air collisions in the New York City metropolitan area, as well
as audits in the rail, pipeline, and commercial vehicle safety areas. Our reports on FAA’s air traffic
control modernization efforts, short-term capacity initiatives in the National Airspace System, and small
community air service development program; and Amtrak’s high-speed rail in the Northeast corridor
addressed issues of mobility and congestion. Our audits examined financing and contracting issues in
the Pioneer Valley Transit Authority Electric Bus cooperative agreement, the lower Manhattan recovery
projects, and the National Airway Systems contract.

Our investigative activities this reporting period concentrated on a variety of fraudulent activities in the
areas of Commercial Drivers’ Licenses, Disadvantaged Business Enterprise contracts, aircraft maintenance
log books, aircraft parts, shipments of hazardous materials, fuel excise taxes, and construction grants and
contracts.

Current transportation topics of importance that we testified on before Congress included myriad FAA
issues such as actions needed to strengthen FAA’s safety oversight and use of partnership programs,
actions underway to address flight delays and improve airline customer service, key safety and
modernization challenges, key issues facing FAA’s controller workforce, status of FAA’s efforts to develop
the Next Generation Air Transportation System, and FAA’s certification of the Eclipse EA–500 Very Light
Jet. We also provided testimony on actions needed to enhance pipeline security and Amtrak’s future
outlook and budgetary needs.




                                                                           Letter from the Inspector General iii

Finally, on the advent of the change in Administration, I would like to commend Secretary Peters, Deputy
Secretary Barrett, the Department’s Secretarial officers, and the modal administrators for their steadfast
support of our mission and responsiveness to our recommendations and for their outstanding efforts to, as
Secretary Peters has stated, “focus on finding real transportation solutions that make travel safer, improve
the performance of our transportation systems so that they operate more efficiently and serve us better,
and apply advanced technologies and contemporary approaches to today’s transportation challenges.”



Very Respectfully,



Calvin L. Scovel III 





iv Semiannual Report to Congress

                                                                Audits and Investigations

Aviation and Special Programs




IN FOCUS: MAINTAINING THE NATIONAL AIRSPACE SYSTEM WHILE TRANSITIONING TO THE
NEXT GENERATION AIR TRANSPORTATION SYSTEM


A
         modern, flexible air transportation system     The costs and benefits for implementing NextGen
         is essential to the Nation’s economy and the   remain unknown and a sustained level of oversight
         safe and efficient movement of passengers      will be required. Moreover, the challenges with
and goods. The current air transportation system        NextGen are multi-dimensional and involve
handles almost 50,000 scheduled flights a day but       complex software development and integration,
will not be able to accommodate the expected            adjustments to existing air traffic modernization
demand for air travel. Further, planned near-term       projects, extensive field testing and validation, and
efforts will not significantly reduce gridlock at       work force changes.
already congested airports. To meet the demand
and reduce delays, FAA is embarking on the Next                                   FAA Capital Funding for FY 2008 to FY 2013
Generation Air Transportation System (NextGen),                                                      (Totals in Millions)
                                                         $4,000.0

which is expected to rely heavily on satellites and                                                                                        $3,558.0
                                                         $3,500.0                                                                                     NextGen funding includes
data link communications between pilots and                                        NextGen Funding
                                                                                   Remaining F&E     $3,086.0
                                                                                                                     $3,093.9
                                                                                                                                $3,345.6
                                                                                                                                                      programs such as ADS-B,
                                                                                                                                                      SWIM, DataComm,

controllers.                                             $3,000.0
                                                                                      $2,723.5
                                                                                                                                                      and developmental projects.

                                                                                                                                           $1,494.2
                                                                                                                                $1,227.5
                                                                       $2,513.6
                                                                                                      $986.5         $1,056.2                         Remaining Facilities and

Developing NextGen is a high-risk effort                 $2,500.0
                                                                       $187.7           $631.1
                                                                                                                                                      Equipment (F&E) includes
                                                                                                                                                      funding for existing
                                                                                                                                                      projects, facilities, and
involving billion-dollar investments from both           $2,000.0
                                                                                                                                                      support service contracts.


the Government (for new ground systems) and
                                                         $1,500.0
airspace users (for new avionics). In a series of                                                                                                     Total NextGen fundi ng for
                                                                                                                                                      FY 2008 to FY 2013 from
                                                                       $2,325.9                                                                       the capital account is
reports and testimonies before Congress, we have         $1,000.0                      $2,092.4      $2,099.5        $2,037.7   $2,118.1   $2,063.8   $5.6 billion.


chronicled progress with FAA’s major acquisitions         $500.0

and highlighted the challenges and risks facing
FAA in developing and transitioning to NextGen.              $0.0
                                                                     FY 2008           FY 2009       FY 2010         FY 2011    FY 2012    FY 2013
                                                                    (Enacted)
                                                                                                           Fiscal Year
                                                         Source: FAA




                                                                                                        Aviation and Special Programs                                   1
Audits and Investigations (continued)

Challenges Facing FAA In Modernizing The                  (ERAM) program. ERAM provides new hardware
National Airspace System                                  and software for facilities that manage high
                                                          altitude traffic. However, its software requirements
FAA is at a crossroads with its efforts to modernize      as they relate to NextGen are uncertain but are
the National Airspace System. The Agency will             expected to be in the billions of dollars.
be challenged to keep ongoing projects on track,
                                                          Reaching Consensus with Stakeholders about
develop and implement NextGen initiatives, and
maintain aging facilities. NextGen is shaping
                                                          Implementing ADS-B Is a Challenge That Will
FAA’s capital account. In FY 2009, FAA plans to           Require Signiﬁcant Oversight
spend $2.7 billion for capital funding—an increase
of 8 percent over last year’s enacted level. Further,     A key challenge for the Department and FAA is
between FY 2008 and FY 2013, FAA plans to spend           reducing risk associated with the implementation
$18 billion for capital efforts, including $5.6 billion   of ADS-B—a centerpiece of the NextGen portfolio.
specifically for NextGen.                                 In August 2007, FAA awarded a service-based
                                                          contract for ADS-B ground infrastructure
Much of the projected funding for NextGen will            worth $1.8 billion. In addition, FAA published a
focus on developmental efforts. In FY 2009 alone,         proposed rule that outlined its plans for mandating
FAA plans to spend more than $630 million on              the use of the new technology and the time frame
NextGen-related programs, including a satellite-          for airspace users to purchase and install the new
based surveillance system called Automatic                avionics.
Dependent Surveillance-Broadcast (ADS-B) and
a new information sharing network called the              FAA plans to implement ADS-B “Out” around
System-Wide Information Management (SWIM).                2020, when aircraft will be required to broadcast
The figure on the previous page illustrates FAA’s         their position to ground stations. However, the
planned investments in ongoing projects and               majority of capacity and safety-related benefits are
NextGen initiatives from FY 2008 to FY 2013.              associated with ADS-B “In,” where information
                                                          will be displayed to pilots in the cockpit. The
Progress with Major Acquisitions                          requirements for ADS-B “In” are still evolving and
                                                          have not been finalized.
In our April 2008 report, we reported on the
                                                          The successful implementation of ADS-B in the
progress and problems FAA faced regarding
                                                          United States faces a myriad of risks, such as
18 major acquisitions valued at $17.5 billion.
                                                          (1) gaining stakeholder acceptance and aircraft
Overall, we did not find the significant cost growth
                                                          equipage, (2) addressing broadcast frequency
and schedule delays with FAA major acquisitions
                                                          congestion concerns, (3) integrating with existing
that occurred in the past. This was attributed to
                                                          systems, and (4) assessing potential security
FAA’s incremental approach to managing major
                                                          vulnerabilities in managing air traffic. Given
acquisitions.
                                                          FAA’s history with developing new technologies
It will be important for FAA to keep existing             and the fact that the Government will not own the
projects within budget and on schedule because            ADS-B ground infrastructure, this program will
over 30 projects serve as platforms for NextGen           require a significant level of oversight.
initiatives. For example, core NextGen capabilities,
such as data link, rely on enhancements to the
$2.1 billion En Route Automation Modernization


2   Semiannual Report to Congress

Much Work Remains To Transition Existing              t	 Conduct a gap analysis between the existing
Programs To NextGen                                       NAS and the expected NextGen capabilities to
                                                          determine funding priorities and the full range
We recommended that FAA examine existing                  of adjustments necessary for existing programs
projects to determine if they were still needed           until their transition into NextGen.
and, if so, what adjustments would be required.       t	 Develop a mid-point architecture (a technical
FAA concurred with our recommendation and                 road map) that provides a way point between
has begun this assessment. To date, however,              today and NextGen in the 2025 time frame.
FAA has not made major adjustments to existing
modernization projects to accelerate NextGen.         t	 Assess and obtain the necessary skills with
                                                          respect to contract management and systems
Over the next 2 years, FAA must make more                 engineering needed to manage and execute
than 25 critical decisions about ongoing                  NextGen.
programs. These decisions have significant budget
implications and will affect all major lines of the   Sustaining FAA’S Vast Network Of Aging
modernization effort with respect to automation,      Facilities
communications, navigation, and surveillance.
For example, FAA must address what changes are
                                                      A key cost driver for NextGen is determining
needed to modernize its terminal facilities and
                                                      to what extent FAA re-aligns or consolidates air
whether it will pursue a “common automation
                                                      traffic control facilities. This has significant cost
platform” for terminal and en route environments
                                                      implications for the number of controller displays
in the future.
                                                      and related computer equipment needed to manage
Further, sound investment decisions for               traffic in the vicinity of airports.
NextGen can only be accomplished through a
                                                      Many FAA air traffic control facilities have
comprehensive enterprise architecture (a technical
                                                      exceeded their useful lives, and their physical
blueprint) that outlines how the system will
                                                      condition continues to deteriorate. In some cases,
work and what changes are required in existing
                                                      facilities deteriorated so badly that they required
programs. However, the NextGen Enterprise
                                                      urgent and repeated actions. While the average
Architecture and other key planning documents
                                                      facility has an expected useful life of approximately
lack detail on requirements that could be used
                                                      25 to 30 years, 55 percent of FAA facilities are
to develop reliable cost estimates and schedule.
                                                      between 30 and 50 years old.
In most cases, the information in the NextGen
Enterprise Architecture remains at too high a level   FAA points out that flexible ground
to be effective.                                      communication networks do not require facilities
                                                      to be near the traffic they manage. FAA often
In a series of reports on NextGen, we made a
                                                      cites its aging facilities and the related expense of
number of recommendations geared to help FAA
                                                      maintaining such a large number of facilities to
reduce risk with NextGen. FAA agreed with our
                                                      justify consolidating the air traffic control system
recommendations, and has actions underway to
                                                      into a smaller number of facilities. However,
address them. FAA needs to complete planned
                                                      there are technical and security prerequisites for a
efforts to:
                                                      major consolidation that need to be analyzed and
                                                      established.



                                                                            Aviation and Special Programs     3
Audits and Investigations (continued)

This is a controversial issue. The extent to which     analyses of consolidation requirements, identify
FAA consolidates or re-aligns facilities is a policy   cost drivers, and determine how risks to air traffic
call for the Congress and the Administration.          operations can be mitigated.
Nevertheless, FAA needs to complete planned




AUDITS
Testimony on Actions Needed to Strengthen              request for an “after–action” analysis of
FAA’s Safety Oversight and Use of                      (1) contributing factors to last summer’s record–
Partnership Programs                                   breaking flight delays; (2) the status of ongoing
April 03, 2008                                         efforts by DOT, the airlines, and airports to
                                                       improve airline customer service in response
The Inspector General testified before the             to record delays and our recommendations last
House Committee on Transportation and                  September; and (3) actions needed to mitigate
Infrastructure on actions needed to strengthen         congestion and delays.
FAA’s safety oversight and use of partnership
programs. This testimony is part of the Office         The Inspector General reported that these flight
of Inspector General’s work on FAA’s handling          delays and cancellations were caused by multiple
of whistleblower concerns following a Southwest        factors, including weather conditions, carrier–
Airlines (SWA) airworthiness directive (AD)            caused delays, airspace congestion, and airline
violation, as requested by the Committee. The          scheduling over airport capacity.
Inspector General noted breakdowns in three areas
of FAA oversight that contributed to the SWA           The Inspector General outlined several near–
event and illustrated the potential for system–        term actions to reduce congestion and delays in
wide weaknesses: (1) partnership programs with         the summer of 2008 and beyond. These actions
air carriers, (2) national program for risk–based      include DOT and FAA negotiating a plan with the
oversight, and (3) internal reviews and handling       Department of Defense (DOD) to utilize special–
of employees who report safety concerns. The           use airspace. We also stated that FAA should
Inspector General stated that our office will          establish procedures to keep capacity benchmarks
continue to examine FAA’s oversight approach           for the major airports current. The Inspector
from a national perspective, as requested by the       General also stated that BTS should use airlines’
Committee.                                             delay and cancellation data to analyze locations
                                                       of initial delays and underlying causes of system–
Testimony on Status Report on Actions                  wide effects. These efforts would provide the
Underway To Address Flight Delays and                  Congress, DOT, FAA, and other stakeholders with
Improve Airline Customer Service                       a better understanding of the causes of delays and
April 09, 2008                                         the solution sets needed to address them.

The Inspector General testified before the House
Subcommittee on Aviation on initiatives underway
to address delays and improve airline customer
service. This was in response to the Chairman’s


4   Semiannual Report to Congress

Audits and Investigations (continued)

Letter to Senator Lautenberg on Low Fuel               and its stakeholders will need to address over
Declarations at Newark Liberty                         the next several years. These included
International Airport                                  (1) strengthening FAA’s oversight of the aviation
April, 9, 2008                                         industry, (2) improving runway safety, and
                                                       (3) addressing attrition in two of FAA’s critical
This letter to Senator Lautenberg represents           workforces–air traffic controllers and aviation
the results of our review of the emergency and         safety inspectors.
minimum fuel declarations by pilots on flights
into the Newark Liberty International Airport          Air Traﬃc Control Modernization
(Newark Liberty). The Senator expressed                April 14, 2008
concerns about reports of increased fuel
declarations on flights into this airport. We found    This report represents the results of our audit of the
that minimum and emergency fuel declarations           Federal Aviation Administration’s (FAA) air traffic
had increased on flights into the Newark area;         control modernization efforts. At the request of
however, there were no instances of aircraft           the House Committee on Transportation and
landing with fuel levels below those required by       Infrastructure, we examined three objectives:
FAA (based on our sample of 20 flights). The           (1) trends in recent FAA capital spending,
increases were attributable to several factors,        (2) changes in cost and schedule baselines of major
including differences in pilot and controller          acquisitions, and (3) the effect of the transition to
interpretation of minimum and emergency fuel           the Next Generation Air Transportation System
declarations and air carrier use of smaller planes     (NextGen) on existing projects. We found that
on international routes. FAA has begun reviewing       FAA’s capital account is now beginning to be
these declarations and clarifying its guidelines for   shaped by NextGen. We also found that FAA’s
minimum and emergency fuel declarations. It is         modernization projects are not experiencing the
too soon, however, to determine the effectiveness      cost growth and schedule slips that occurred in the
of FAA’s actions.                                      past. This is primarily due to FAA’s incremental
                                                       approach to major acquisitions.
Testimony on Key Safety Challenges Facing
                                                       FAA is meeting its acquisition cost and schedule
the FAA
                                                       metrics but the metrics do not take into account
April 10, 2008
                                                       changes in requirements or units to be procured.
The Inspector General testified before the             Finally, we found that much work is needed
Senate Committee on Commerce, Science, and             to determine NextGen’s impact on existing
Transportation, Subcommittee on Aviation               programs and to set realistic expectations for
Operations, Safety and Security. Aviation safety       what new capabilities can be delivered. Our
oversight is, and must remain, FAA’s highest           recommendations to FAA focused on:
priority. For over 10 years, our work has focused      (1) developing new metrics for measuring NextGen
on actions needed to maintain the integrity and        progress on expanding capacity and boosting
safety of our aviation system. However, a number       productivity, (2) completing a gap analysis between
of high–profile events, including fundamental          the current National Airspace System and the
breakdowns in FAA oversight at Southwest               NextGen enterprise architectures, and
Airlines, have raised legitimate concerns about the    (3) establishing an interim architecture to
effectiveness of FAA’s overall approach to safety      determine priorities to allow more accurate
oversight and what changes are needed. The             NextGen costs and requirements. FAA concurred
testimony focused on the key actions that FAA          and is taking action to address our concerns.

                                                                            Aviation and Special Programs
   5
Audits and Investigations (continued)

Testimony on Key Safety and Modernization            use of outsourced maintenance and aircraft
Challenges Facing the FAA                            manufacturers’ suppliers; (2) keeping existing
April 17, 2008                                       modernization programs on track, reducing risk
                                                     with NextGen, and setting realistic expectations;
The Inspector General testified before the           and (3) addressing attrition within FAA’s air traffic
Senate Committee on Appropriations,                  controller and inspector workforces.
Subcommittee on Transportation, Housing and
Urban Development, and Related Agencies on the       Review of Reported Near Mid–Air Collisions
Federal Aviation Administration’s (FAA) key safety   in the New York Metropolitan Airspace
and modernization challenges.                        April 24, 2008

FAA must operate and maintain an increasingly        This report represents the results of our review
strained system while transitioning to the next      of reported near mid–air collisions (NMACs) in
generation of air traffic control and addressing     the New York metropolitan airspace. The review
attrition in critical workforces. The events         was initiated in response to a June 11, 2007, letter
involving Southwest Airlines and the grounding of    from Senator Hillary Rodham Clinton regarding
hundreds of aircraft raised concerns about FAA’s     five NMACs that occurred in the New York area
overall approach to safety oversight.                in May 2007. The objectives of our review were to
                                                     address the following questions posed by Senator
The Inspector General highlighted three key          Clinton: (1) What is the root cause of the near
challenges facing FAA and its stakeholders           misses in May 2007 in the New York airspace?
over the next several years: (1) strengthening       (2) How is the Federal Aviation Administration
FAA’s oversight of the aviation industry,            (FAA) addressing these problems, and what
including its systems for monitoring air carriers’   measures has the FAA taken to prevent repeat
                                                     occurrences? (3) Do any of the New York area
                                                     airports practice a similar type of procedure that
                                                     FAA ordered a halt to at the Memphis airport
                                                     where FAA allowed planes to simultaneously
                                                     land and depart from nearby runways that have
                                                     intersecting flight paths?

                                                     Overall, we found that the five NMACs were
                                                     independent, unrelated events with no obvious
                                                     common root causes. Four of the five events
                                                     were later determined to be no hazards; only one
                                                     was classified as “potential.” These NMACs were
                                                     reported by commercial pilots who may have been
                                                     initially “surprised” by the location of visual flight
                                                     rule (VFR) aircraft in nearby airspace, but the
                                                     incidents actually posed no risk to safety regardless
                                                     of actions taken by the pilots. However, the four
                                                     no–hazard incidents continue to be classified and
                                                     counted as “near mid–air collisions,” a term that
                                                     we believe misrepresents the actual safety risk
                                                     posed by an incident.

6   Semiannual Report to Congress
Audits and Investigations (continued)

Actions Needed to Enhance Pipeline                      of FAA’s plans to effectively train an increasing
Security                                                number of new controllers at the facility level and
May 21, 2008                                            (2) determine FAA’s progress in implementing
                                                        key initiatives for reducing facility training time
As required by the Pipeline Inspection, Protection,     and costs. We found that FAA’s facility training
Enforcement, and Safety Act of 2006, we assessed        program continues to be extremely decentralized
Department of Transportation (DOT) and                  and the efficiency and quality of the training varies
Department of Homeland Security (DHS) actions           extensively from one location to another. We
taken to implement the pipeline security annex to       found similar problems in 2004.
the 2004 Memorandum of Understanding between
DOT and DHS to facilitate transportation security       FAA is taking actions at the national level to get
improvements. Within DOT, the Pipeline and              this important program on track, but many of its
Hazardous Materials Administration (PHMSA)              efforts are still in the early stages. To successfully
has responsibility for pipeline security and            achieve its plans to hire and train 17,000 new
safety. Within DHS, the Transportation Security         controllers through 2017, FAA needs to take
Administration (TSA) is responsible for pipeline        the following actions: (1) reflect the changing
security. In 2006, PHMSA and TSA signed the             composition of the controller workforce in reports
annex to establish clear lines of authority and         to its stakeholders, (2) establish realistic standards
responsibility over pipeline security matters. We       for how many developmental controllers facilities
found that the PHMSA and TSA have taken                 can accommodate, (3) ensure the standards
initial steps toward formulating an action plan to      developed address individual facilities’ training
implement the provisions of the annex; however,         capacity, (4) continue to encourage veteran
further actions are needed as the current situation     controllers to transfer to busier, higher–level
is far from an “end state” for enhancing the            facilities, (5) clarify responsibilities for oversight of
security of the Nation’s pipeline system. We            the facility training program at the national level,
recommended that PHMSA collaborate with TSA             (6) ensure there are no gaps in facility training
to: (1) finalize the action plan for implementing       contract support, and (7) implement key initiatives
the annex provisions and program elements and           it first proposed in 2004 to improve facility
effectively execute the action plan, (2) amend          training.
the annex to clearly delineate the roles and
responsibilities of PHMSA and TSA in overseeing         Testimony on Key Issues Facing the Federal
and enforcing security regulations for liquid           Aviation Administration’s Controller
natural gas operators, and (3) maximize the             Workforce
resources used to assess pipeline operators’ security   June 11, 2008
plans and guidance to ensure effective and timely
execution of efforts mandated by Congress.              The Inspector General testified before the House
                                                        Subcommittee on Aviation on key issues facing
Review of the Air Traﬃc Controller Facility             the Federal Aviation Administration’s (FAA) air
Training Program                                        traffic controller workforce. After the massive
June 5, 2008                                            controller strike of 1981, FAA began rapidly hiring
                                                        replacements in 1982 and 1983. This created a
This report represents the results of our review        large pool of controllers who are all becoming
of the Federal Aviation Administration’s (FAA)          eligible for retirement at roughly the same time.
air traffic controller facility training program.
Our objectives were to (1) assess the adequacy

                                                                               Aviation and Special Programs
   7
Audits and Investigations (continued)

FAA plans to hire and train nearly 17,000 controllers   the annex to clearly delineate the roles and
over the next decade to offset these retirements.       responsibilities of PHMSA and TSA in overseeing
As a result, the overall percentage of controllers in   and enforcing security regulations for liquid
training has grown substantially over the past          natural gas operators, and (3) maximize resources
4 years, and the Agency is now facing a                 for assessing pipeline operators’ security plans and
fundamental transformation in the composition           guidance to ensure effective and timely execution
of its controller workforce. The Inspector General      of congressionally mandated actions.
emphasized that FAA must provide sufficient
training for new hires while ensuring there are         Review of FAA’s Oversight of Airlines and
enough certified controllers at its more than           Use of Regulatory Partnership Programs
300 air traffic control facilities.                     June 30, 2008

The Inspector General noted three areas where           This report represents the results of our review
FAA should focus its efforts to successfully            of the Federal Aviation Administration’s (FAA)
achieve this goal: (1) improving facility training,     oversight of airlines and use of regulatory
(2) addressing controller human factors, and            partnership programs. We initiated this
(3) ensuring accuracy and consistency in                review at the request of the Chairman of the
reporting and addressing operational errors.            House Committee on Transportation and
                                                        Infrastructure. The objectives of our initial
Testimony on Actions Needed To Enhance                  review were to determine (1) the thoroughness of
Pipeline Security                                       FAA’s investigation of whistleblower complaints
June 25, 2008                                           regarding FAA’s oversight of Southwest Airlines
                                                        (SWA) and (2) the type and timeliness of
The Inspector General testified before the House        corrective actions FAA took in response to any
Subcommittee on Railroads, Pipelines, and               inappropriate inspector actions. We testified
Hazardous Materials on actions taken by and             multiple times before the House and Senate
needed from the Departments of Transportation           regarding the SWA matter in April. During these
(DOT) and Homeland Security (DHS) to enhance            hearings, we made a series of recommendations
pipeline security. Within DOT, the Pipeline and         to improve FAA’s air carrier oversight practices.
Hazardous Materials Administration (PHMSA)              While FAA generally agreed with most of our
oversees pipeline safety, while the Transportation      recommendations, it disagreed with two that are
Security Administration (TSA) within DHS                fundamental to improving its air carrier oversight:
oversees security–related matters.                      (1) periodically rotating supervisory inspectors to
                                                        ensure reliable and objective air carrier oversight
As required by the Pipeline Inspection, Protection,
                                                        and (2) establishing an independent organization
Enforcement, and Safety Act of 2006, the Office
                                                        to investigate safety issues identified by FAA
of Inspector General reviewed PHMSA’s and
                                                        employees. Given the seriousness of the issues
TSA’s steps toward implementing the annex.
                                                        these recommendations were intended to address,
The Inspector General’s testimony focused on
                                                        we believe FAA needs to reconsider its position.
actions recommended as a result of that review.
                                                        At the request of Congress, we continue to review
Specifically, the Inspector General stated that
                                                        FAA’s air carrier oversight processes to determine
PHMSA, in collaboration with TSA, must
                                                        if there are areas in which FAA could strengthen
(1) finalize the action plan for implementing the
                                                        its oversight. We plan to issue our final report on
annex provisions and program elements and
                                                        these areas next year.
effectively execute the action plan, (2) amend

8   Semiannual Report to Congress

Audits and Investigations (continued)

Letter to Senator Coburn Regarding the City            in budget and planning documents, (2) focus
of San Francisco’s Use of Federal Transit              much needed attention on technology transfer
Funds                                                  issues, (3) clearly define the roles of the Air
August 20, 2008                                        Traffic Organization and the Joint Planning and
                                                       Development Office and effectively use in–house
This letter to Senator Tom Coburn, Ranking             resources, (4) place a high priority on relieving
Member of the Senate Subcommittee on Federal           already congested airports, and (5) examine what
Financial Management, Government Information,          can reasonably be implemented in given time
Federal Services, and International Security           increments.
represents the results of our review of the San
Francisco city government’s use of Federal transit     Testimony on FAA’s Certiﬁcation of the
funds for the city’s bus and transit system, the       Eclipse EA–500 Very Light Jet
Municipal Railway (Muni). Senator Coburn               September 17, 2008
requested that we determine if the city had used
those funds for unauthorized purposes, including       The Inspector General testified before the House
directly paying for lobbying activities or replacing   Subcommittee on Aviation on the Eclipse EA–500
city transportation funds diverted for lobbying        very light jet (VLJ). VLJs are small aircraft with
activities. Federal regulations prohibit the use of    advanced technologies that cost less than other
Federal funds for such activities. In summary, we      business jets. The Inspector General’s testimony
found no evidence that the city had used Federal       was based on the initial results of our investigation
transit funds for unauthorized purposes. Also,         of March 2007 inspector complaints related to the
we found that Federal Transit Administration and       Federal Aviation Administration’s (FAA) design
Muni controls were adequate to ensure proper use       and production certification of the EA–500. We
of these funds.                                        did not assess the safety of the aircraft itself or
                                                       examine FAA’s aircraft certification process in
Testimony on Status of FAA’s Eﬀorts To                 general.
Develop the Next Generation Air
                                                       We found that FAA allowed Eclipse to use alternate
Transportation System
                                                       processes to meet design certification requirements
September 11, 2008
                                                       despite unresolved problems identified during
The Inspector General testified before the House       design testing. Those alternate actions may have
Committee on Science and Technology on the             contributed to some design problems that are still
status of the Federal Aviation Administration’s        reported by Eclipse users today. FAA also awarded
(FAA) efforts to develop the Next Generation           Eclipse a production certificate despite known
Air Transportation System (NextGen), which             deficiencies in its supplier and quality control
is targeted for the 2025 timeframe. Developing         systems and significant problems encountered
NextGen is one of the biggest challenges facing        replicating its approved aircraft design.
FAA. It is a high–risk effort involving billion–
                                                       We concluded that FAA’s desire to promote VLJs
dollar investments from both the Government
                                                       and meet an arbitrarily determined deadline may
and airspace users. The Inspector General noted
                                                       have affected Eclipse oversight as FAA quickly
that a number of actions are needed from FAA
                                                       moved the aircraft through the certification
going forward to help shift NextGen efforts from
                                                       process. Our testimony noted that a significant
research to implementation. Specifically, FAA
                                                       issue overshadowing FAA’s certification of the
must (1) establish priorities and include them
                                                       EA–500 was the inherent risks associated with

                                                                            Aviation and Special Programs
   9
Audits and Investigations (continued)

a development of a new aircraft utilizing new            initiatives planned or underway that can provide
technology, produced by a new manufacturer,              some relief from delays and boost capacity in
and marketed with a new business model for its           the next 3 to 5 years. These include new airport
use. Consequently, FAA should have exercised             infrastructure, airspace redesign, performance-
heightened scrutiny in certifying the aircraft.          based navigation initiatives, and automated
In addition, because the EA–500 has advanced             controller tools. Each initiative, however, faces
avionics and turbine engine technology typical           challenges that must be fully addressed. FAA has
of large transport aircraft combined with the            recently taken several steps to better organize and
light weight of smaller, general aviation aircraft, it   manage capacity initiatives and to help implement
did not easily fit into FAA’s existing certification     NextGen. These included, among other things,
framework.                                               establishing a new Senior Vice President for
                                                         NextGen and Operations Planning and a new
We recommended that FAA (1) reassess the                 office dedicated to NextGen efforts. Therefore, we
propriety of its single-pilot certification for          are not making any recommendations to FAA
the EA-500, (2) expedite its NPRM to clarify             at this time, but we will continue to monitor
certification requirements for the expanding VLJ         FAA’s actions.
industry segment given the differences between
certification requirements for large transport and
general aviation aircraft, (3) evaluate the propriety
of granting ODAR authority to new, inexperienced
manufacturers prior to design certification,
(4) discontinue prioritizing specific manufacturers’
programs in its Performance Plan for special
attention to prevent any appearance of favoritism
or the perception of diminished vigilance in its
oversight mission, and (5) implement a “cooling­
off” period for its aircraft certification safety
inspectors and engineers before allowing them
to accept positions with the manufacturers they
formerly regulated.

Observations on Short-Term Capacity
Initiatives
September 26, 2008

This report represents the results of our review
on the Federal Aviation Administration’s (FAA)
short-term capacity initiatives. Because FAA’s
Next Generation Air Traffic Management System
(NextGen) initiative is a long-term effort, Congress
requested that we provide our observations on
the initiatives that will provide the most capacity
benefits in the next 5 years and FAA’s management
of these efforts. While there is no “silver bullet”
for addressing delays, we identified several FAA

10 Semiannual Report to Congress

Audits and Investigations (continued)

Air Carriers’ Outsourcing of Aircraft                    FAA’s Progress and Challenges in Meeting
Maintenance                                              FTI Transition Goals
September 30, 2008                                       September 30, 2008

This report represents the results of our audit of air   This report represents the results of our follow–
carriers’ outsourcing of aircraft maintenance. We        up audit of the Federal Aviation Administration’s
conducted this audit at the request of the House         (FAA) Telecommunications Infrastructure (FTI)
Committee on Transportation and Infrastructure.          program. FTI is intended to replace seven FAA–
Our audit objectives were to (1) identify the            owned and –leased telecommunications networks
type and quantity of maintenance performed by            with a single network to reduce operating costs.
external repair stations and (2) determine whether       The objectives of our review were to assess FAA’s
FAA is effectively monitoring air carriers’ oversight    progress in (1) developing a realistic master
of external repair stations’ work and verifying that     schedule and an effective FTI transition plan and
safety requirements are met. We found that the           (2) mitigating technical risks to ATC operations
nine major air carriers we reviewed sent 71 percent      before activating FTI services and disconnecting
of their heavy airframe maintenance checks to            existing telecommunications services.
repair stations in 2007, up from only 34 percent
in 2003. Also, while FAA has begun moving its            Since we last reported, FAA has made significant
safety oversight toward a risk–based system, it          progress with FTI and has transitioned the largest
still relies too heavily on air carriers’ oversight      and costliest network, which will help to control
procedures, which are not always sufficient.             telecommunications costs. Notwithstanding this
                                                         important progress, several areas remain critical
Specifically, we determined that FAA did not             watch items for decision makers as FAA moves
(1) have an adequate system for determining how          forward with FTI. These include shifting service
much and where the most critical maintenance             requirements, the extent to which expected cost
occurs, (2) have a specific policy governing             savings will be realized, and efforts to mitigate
when certificate management inspectors should            risks to air traffic operations–all of which have
visit repair stations performing substantial             impacted FAA’s ability to meet FTI’s original
maintenance, (3) require inspectors to validate          program goals. We also examined and found
that repair stations have corrected deficiencies         that FAA still has not validated cost and benefit
identified in air carrier audits, and (4) have           estimates as agreed after our April 2006 report.
adequate controls to ensure that inspectors
document inspection findings in the national             FAA concurred with all of our recommendations,
database and review related findings by other            which included (1) reassessing prior engineering
inspectors. As a result, FAA could not perform           costs that should have been associated with capital
comprehensive risk assessments to effectively target     funds, (2) documenting the planned schedule
its inspection resources. FAA agreed to implement        for completing the transition to FTI of services
all seven of our recommendations to enhance the          remaining on legacy networks, (3) calculating
Agency’s oversight of outsourced maintenance.            how postponing the transition of some legacy
                                                         services will impact FTI’s life–cycle cost and
                                                         benefits baselines, (4) conducting periodic audits
                                                         to ensure diversity, (5) developing an action plan to
                                                         ensure FTI services meet contractual restoration
                                                         and availability requirements, and (6) reviewing
                                                         internal procedures for reporting FTI outages.

                                                                              Aviation and Special Programs 11

Audits and Investigations (continued)


INVESTIGATIONS

Owner of Tennessee Aircraft Sales Company              hazardous materials. He also failed to produce
Sentenced to More Than 3 Years in Prison               required shipper certifications and to properly
for Falsifying Aircraft Maintenance Log                label and mark outer packaging. Sentencing is
Books                                                  scheduled for October 17, 2008.
April 25, 2008

James Randall Jennings, of Goodlettsville,
Tennessee, owner of Jennings Aircraft Sales,
was sentenced on April 25, 2008, to 37 months
in prison after being convicted in July 2007 of
wire fraud. Mr. Jennings falsified log books on
a helicopter he sold and provided those false
documents via email to the purchaser of the
helicopter. The DOT/OIG investigation revealed
that the original manufacturer’s specifications
required the helicopter engine to be overhauled
after 2,200 hours of flight service. However, by
falsifying the log books, Mr. Jennings fraudulently
concealed the true hours of operation on the
aircraft. By doing so, Mr. Jennings endangered
the life of the purchaser and the general public, as
the safety of the aircraft for flying was placed in
question. This investigation was conducted jointly     Florida Pilot Sentenced for Falsifying His
with FAA.
                                                       Immigration Status on His Airman and
New York Industrial Supply Owner Pleads                Medical Applications
Guilty to Illegally Shipping Hazardous                 June 10, 2008
Materials on Aircraft                                  Sebastian Esteban Roca was sentenced on
May 1, 2008                                            June 10, 2008, in U.S. District Court, Miami,
                                                       Florida, to time already served during his 90–day
Mark Henry pled guilty to count one of a three–
                                                       imprisonment awaiting sentencing, as well as
count indictment on May 1, 2008, in U.S. District
                                                       2 years of supervised release, for falsifying his
Court, Brooklyn, New York, to illegally shipping
                                                       immigration status and his airman and medical
hazardous materials on an aircraft and admitted
                                                       application. The investigation revealed that since
that he had violated DOT hazardous materials
                                                       2002, Mr. Roca, a pilot for Spirit Airlines, had
transportation regulations. In March 2007,
                                                       made false statements on his airman and medical
Mr. Henry, owner of industrial supply companies
                                                       forms regarding his immigration status. U.S.
Taiyi Corporation and Bao An Corporation,
                                                       Department of Homeland Security/Immigration
offered a shipment for international air transport
                                                       and Customs Enforcement (DHS/ICE) agents
that contained undeclared hazardous materials.
                                                       notified FAA that Mr. Roca, born in Argentina,
Mr. Henry falsified several FedEx Air waybills
                                                       had falsely claimed to be born in Havana, Cuba,
by indicating that the shipments did not contain

12 Semiannual Report to Congress

in order to become a permanent resident in the          Former CEO of Houston Flight Management
United States. Further investigation disclosed          Company Pleads Guilty to Falsifying Log
that the latest incident occurred in 2007 when Mr.      Book Entry
Roca applied for an Airbus 320–type rating, which       August 4, 2008
would have allowed him to maintain employment
with Spirit Airlines as a pilot. This investigation     On August 4, 2008, in U.S. District Court,
was conducted jointly with DHS/ICE and FAA.             Houston, Texas, William M. Sexton, former CEO
                                                        and chief mechanic for B&C Flight Management,
Alabama Truck Driver Pleads Guilty to                   pled guilty to a one–count information charge that
HAZMAT Transportation Violation                         in April 2004, Mr. Sexton made a false log book
July 17, 2008                                           entry regarding the installation of a static defect
                                                        correction module in a Gates Learjet 25B. Our
Wayne Parker, a truck driver, was charged and           investigation of Mr. Sexton disclosed that between
pled guilty on July 17, 2008, in U.S. District Court,   January 1998 and August 2004, he was responsible
Cullman, Alabama, to undeclared transportation          for falsifying engine log books and other
of hazardous waste (HAZMAT). A port check               maintenance records by misrepresenting aircraft
operation inspection at a weigh station found Mr.       hours flown, inspections, and repairs. Mr. Sexton
Parker to be in possession of three separate driver     did this in order to deceive FAA and to avoid costly
logs. The driver logs showed that Mr. Parker            required maintenance of aircraft. Sentencing is
omitted recording trips where he was transporting       scheduled for November 10, 2008. This was a joint
hazardous waste. Sentencing is scheduled for            investigation with FAA and the U.S. Department
December 12, 2008.                                      of Homeland Security/Immigration and Customs
                                                        Enforcement.
Florida Aircraft Owner Pleads Guilty to
Falsifying Maintenance Records                          Nebraska Pilot Sentenced to 16 Months
July 18, 2008                                           Imprisonment for Making False Statements
                                                        on his Application for FAA Airmen Medical
Richard Fitzgerald Hammond, owner and operator
of Engine Air, Inc., pled guilty on July 18, 2008, in   Certiﬁcate
U.S. District Court, Miami, Florida, to falsifying      August 27, 2008
maintenance records for the overhaul of aircraft        James Charlton Davis was sentenced on
engines. The DOT/OIG investigation revealed that        August 27, 2008, in U.S. District Court, Omaha,
Mr. Hammond illegally repaired general aviation         Nebraska, to 16 months imprisonment and
aircraft engines and returned them to service           36 months supervised release for submitting
as airworthy. FAA revoked Mr. Hammond’s                 a fraudulent statement on a Federal Aviation
airframe and powerplant mechanic certification in       Administration (FAA) application for his Airmen
December 2004 because Mr. Hammond falsified             Medical Certificate. The DOT/OIG investigation
engine repair documents; however, Mr. Hammond           revealed that Mr. Davis answered ‘negative’ to
continued to certify engines as overhauled              a question regarding his history of non–traffic
even though he knew he was not certified and            conviction(s) and provided a false social
authorized to do so. Mr. Hammond admitted               security number and a false date of birth on his
he illegally returned to service one engine that        June 2005 application. Mr. Davis subsequently
was to be used on an FAA commercial air taxi.           pled guilty to making a fraudulent statement; and
Sentencing has not been scheduled.                      in a plea agreement, he was required to voluntarily


                                                                             Aviation and Special Programs 13

Audits and Investigations (continued)

surrender his private pilot certificate to the FAA.    stolen property. Mr. Snyder previously pled
Also, Mr. Davis agreed that he would not apply         guilty for falsifying numerous entries involving
for any type of FAA certificate during his lifetime.   required inspections and repairs in Federal
This investigation was conducted by DOT/OIG,           Aviation Administration (FAA) regulated
with assistance from FAA.                              aircraft log books. Mr. Snyder admitted that
                                                       he forged the names of licensed mechanics,
Pennsylvania Aircraft Repair Operator                  backdated entries, and falsified entries in the
Sentenced to 51 Months Imprisonment for                FAA log book to conceal thefts and unauthorized
Parts Fraud Involving 66 Aircraft                      replacement of parts on aircraft he repaired. He
September 4, 2008                                      falsified approximately 247 entries involving
                                                       66 separate aircraft, between November 2002
Brian D. Snyder, the owner and operator of             and January 2008. Mr. Snyder also admitted
aircraft repair business, Smooth Landings Inc.,        that he stole and transported a Piper PA–32
was sentenced on September 4, 2008, in                 aircraft from a Ft. Lauderdale, Florida, airport to
U.S. District Court, Williamsport, Pennsylvania,       Elysburg, Pennsylvania, where he sold it. FAA
to 51 months incarceration, and ordered to             has established a process to notify and advise
pay $80,000 in restitution for fraud involving         the victims of any safety hazards related to Mr.
aircraft parts and interstate transportation of        Snyder’s criminal conduct.




14 Semiannual Report to Congress

Highway and Transit Programs




IN FOCUS: FRAUD AWARENESS AND EDUCATIONAL OUTREACH EFFORTS HELP DELIVER
ORGANIZATIONAL EXCELLENCE
Fraud, waste, abuse, and other irregularities harm      be consistent with USDOT’s Strategic Plan goal
Federal, State, and local efforts to provide the safe   of organizational excellence and to enhance the
and efficient transportation systems essential to       Department’s ability to manage for results and
the Nation’s economic vitality, ability to compete      achieve financial accountability goals. These
in a global economy, and most important, each           initiatives extend to every USDOT employee, grant
citizen’s quality of life. The OIG serves the USDOT     recipient, and contractor involved in DOT-related
mission and the public primarily by conducting          projects, as well as the public.
audits and investigations. However, another
important tool is its various fraud awareness           As discussed in this article, the results of several
outreach initiatives, which include educating           recent initiatives have been significant and wide-
members of the transportation community on              ranging in scope, subject matter, and outcome.
how to provide more careful and vigilant oversight      Subsequent increases in awareness of the fraud
and stewardship of the public’s investment in the       risks inherent in USDOT programs and the
transportation system.                                  importance of internal controls not only yield
                                                        results in the short-term, but will pay significant
Overall, OIG’s nationwide fraud awareness and           dividends in the long run as control activities
educational outreach initiatives are designed to        are implemented in the future to enhance DOT’s


                                                                              Highway and Transit Programs 15

Audits and Investigations (continued)


oversight of the more than $70 billion it spends       product substitution involving highway, transit,
annually on Federal transportation projects.           and aviation programs and activities.

Citizens have entrusted all levels of government       For example, Patrick J. Fitzgerald, U.S. Attorney
to ensure that their tax dollars are being wisely      for the Northern District of Illinois, spoke about
spent on transportation infrastructure projects        the importance of collaborating at all levels of
that enhance the safety, security, and mobility of     government to fight fraud and corruption. He
the traveling public. We will continue to work         emphasized the need for vigilance at the state
together with our Federal, State, and local law        and local levels because of their familiarity of
enforcement, prosecutorial, and transportation         projects and programs in their areas and with
colleagues to maintain the public’s confidence in      businesses responsible for designing, building, and
the integrity of our Nation’s transportation system.   maintaining those projects. In addition, Federal
                                                       Transit Administrator, James Simpson highlighted
National Fraud Awareness Conference                    the importance of oversight, accountability,
Held in Chicago                                        policies, and programs to ensure that the Agency
                                                       and its grantees are excellent stewards of taxpayer
The Fifth Biennial National Fraud Awareness            dollars.
Conference on Transportation Infrastructure
Programs was July 28 – 31, 2008, in                    A complete copy of the conference agenda,
Chicago, Illinois, and attended by more than           as well as copies of speaker presentations and
275 Government employees and industry                  other relevant information, is available at
representatives from 38 states. Attendees included     www.PreventTransportationFraud.org. The
program and project managers/executives,               next conference is scheduled for July 2010, in
contracting and procurement officials, engineers,      Washington, DC.
attorneys, auditors, law enforcement personnel,
                                                       “Red Flag” Indicator Fraud Awareness
and transportation industry representatives.
Jointly sponsored by OIG and the American
                                                       Cards Distributed
Association of State Highway Transportation
Officials (AASHTO), the conference was hosted by       The OIG recently produced 12 different fraud
the Illinois Department of Transportation and, for     awareness cards designed to facilitate improved
the first time ever, co-hosted by a transit agency,    communications with all USDOT employees
the Chicago Transit Authority.                         and contract, grant, and cooperative agreement
                                                       recipients (including their employees and
Over 70 speakers from Federal, State, and local        contractors), and to help promote program
transportation agencies and industries provided        effectiveness and prevent and detect fraud, waste,
attendees a diverse 2 ½-day program with               abuse, and other irregularities in DOT program
presentations focused on sharpening awareness          and activities. The cards were made available for
of fraud schemes; sharing best investigative,          distribution by senior Department executives to
audit, and oversight practices; and strengthening      their staffs and will be passed out during OIG
all important working relationships. Specific          visits to construction projects and worksites in the
topics included public corruption and ethics,          coming months.
disadvantaged business enterprise fraud, audit
and investigative practices and techniques, false      When announcing distribution of the cards,
statements and claims, substandard products, and       Inspector General Calvin Scovel said, “We want
                                                       to let everyone in the transportation community

16 Semiannual Report to Congress

                        Congress
more specifically know about the types of issues we    immediately after a disaster will help deter/
are interested in hearing about and encouraging        prevent possible fraud involving debris removal
them to call or write us.” Tips are the #1 way         activities conducted as part of the Federal Highway
OIG learns about fraud. It is not the internal or      Administration’s (FHWA) Emergency Relief (ER)
external auditors, management, or anyone else that     Program. Under this program, roadways and
routinely identifies fraud to the IG—it’s the tips     bridges that are on a Federal-aid highway and
received from others made directly to our agents       that are damaged as a direct result of an approved
and auditors or the OIG Hotline.                       natural disaster or catastrophic failure are eligible
                                                       for FHWA ER funds.
Two of the cards generally outline the concerns
OIG investigates while the others address              For emergency repairs, the Federal share is
specific fraud schemes, such as bribery, product       100 percent for repair work done to restore
substitution, Disadvantaged Business Enterprise        essential traffic, to minimize the extent of damage,
fraud, conflicts of interest, etc., and provide “red   or to protect the remaining facilities within the
flag” indicators for these schemes. All of the cards   first 180 days after the occurrence of the disaster.
detail the different ways to report concerns to the    These repairs can begin immediately following a
OIG Hotline.                                           disaster and prior FHWA approval is not required.
                                                       Properly documented costs are later reimbursed to
One of the cards concerns “Debris Removal” and is      the states once the FHWA Division Administrator
specifically intended for use during extraordinary     determines that the disaster is eligible for ER
disasters such as hurricanes, earthquakes, or          funding. For example, in the aftermath of the
flooding. OIG believes the use of this card            2005 Gulf Coast hurricanes, FHWA spent about
                                                       $300 million on debris removal activities.

                                                       To request a free set of fraud cards, please
                                                       submit your name and business address to
                                                       FraudCards@oig.dot.gov.

                                                       Fraud Awareness Video on False Statements
                                                       and Claims Released

                                                       The OIG also recently released a fraud awareness
                                                       video on false statements and claims to provide
                                                       Government officials, contractors, and the public
                                                       with an increased understanding of common fraud
                                                       schemes and strengthen collaborative efforts aimed
                                                       at the prevention and detection of fraud involving
                                                       transportation programs and activities.

                                                       Using a “Cable News” format, the video presents
                                                       examples of investigations that resulted in criminal
                                                       and civil penalties for business and individuals
                                                       who, while working on contracts funded in
                                                       part by Federal transportation funds, engaged
                                                       in fraud which cheats American taxpayers. In

                                                                            Highway and Transit Programs 17

Audits and Investigations (continued)


addition, the video provides legal perspectives
on false statements and claims and fraud, as well
as “red flag” fraud indicators to help those in the
transportation community, government employees,
and contractors alike know what to look for. The
video also tells viewers how to report possible
fraud, waste, abuse, and other irregularities in
DOT programs to the OIG Hotline.

Copies of this video have been distributed
to all State DOT directors, FHWA Division
Administrators, and many others (including
industry) for use in their respective fraud awareness
programs. To request a free copy of the video
on DVD, please submit your name and business
address to FraudVideo@oig.dot.gov.




AUDITS

Audit of FTA’s Oversight of Pioneer Valley              disclosing research results. FTA also agreed
Transit Authority Electric Bus Cooperative              with our recommendations to review all projects
Agreement                                               associated with the FTA manager responsible for
July 9, 2008                                            the cooperative agreement and establish milestones
                                                        and reporting requirements for the internal group
This report represents the results of our audit         it plans to establish to ensure its corrective action
of FTA’s Oversight of Pioneer Valley Transit            plan is implemented and functioning.
Authority (PVTA) Electric Bus Cooperative
Agreement. Our audit was related to PVTA’s              Use of Income Derived From the Commercial
agreement with ElectraStor of Pittsfield,               Driver’s License Information System for
Massachusetts. Our audit found that ElectraStor         Modernization
could not provide complete or reliable records          July 10, 2008
to support the $4.04 million in Federal
reimbursements it received or support the progress      This audit was performed in response to a
claimed. We also found that neither FTA nor             requirement in the Safe, Accountable, Flexible,
PVTA adequately carried out the oversight               Efficient Transportation Equity Act: A Legacy for
specified in the agreement. The audit recognized        Users. Our audit found that under the regulation
that FTA has taken positive steps to improve            governing Federal grants for modernizing CDLIS,
its oversight of research grants and cooperative        program income derived from CDLIS revenue and
agreements since our audit began. FTA agreed            fees during the grant project period must be used
with our recommendations that included                  for operating and modernizing the system. We
developing an action plan to seek recovery of           made recommendations for FMCSA to amend its
the funds and obtaining a final PVTA report             1988 operating agreement with AAMVA to ensure

18 Semiannual Report to Congress

that (1) program income derived from CDLIS             compliance reviews include appropriate review
revenue and fees during the grant project period       by a FMCSA statistical expert and that results are
is used for operating and modernizing the system,      clearly presented.
(2) provisions are made for states to pay for future
CDLIS enhancements, and (3) AAMVA accounts             Baseline Report on the Lower Manhattan
for and reports to FMCSA the amount and use            Recovery Projects
of program income from CDLIS. On                       September 26, 2008
June 9, 2008, after we issued our draft report,
FMCSA entered into a new Cooperative                   This report represents the results of our review
Agreement with AAMVA to reflect the current            of the Federal Transit Administration’s (FTA)
programs, systems, and organizational changes          Lower Manhattan Recovery Projects involving
that occurred since the 1988 operating agreement       a Federal funding commitment of $4.55 billion.
was ratified. The new Cooperative Agreement            We found that FTA and its project grantees
addresses our recommendations.                         face key challenges, including mitigating risks
                                                       posed by estimated cost increases and schedule
Report on the Scope and Methodology                    delays, ensuring grantees provide timely status
of FMCSA’s Review of Canadian/Mexican                  information and address project management
Compliance With Federal Commercial Motor               issues that FTA has identified, assessing ways
Vehicle Safety Standards (FMVSS)                       to improve the use of FTA’s oversight tools, and
September 24, 2008                                     identifying reliable funding sources to cover
                                                       estimated cost overruns above the Federal cap of
As required in Section 4139(b) of the Safe,            $4.55 billion. Due to significant estimated cost
Accountable, Flexible, Efficient Transportation        increases and schedule completion delays, tough
Equity Act: A Legacy for Users, we reviewed the        choices lie ahead. Project grantees will likely have
scope and methodology used in Federal Motor            to provide their own funding to complete the
Carrier Safety Administration’s (FMCSA)                projects as designed or propose to significantly
April 2006 Review of Canadian/Mexican                  reduce the scope of one or more of the projects,
Compliance With Federal Commercial Motor               potentially diminishing the benefits that the
Vehicle Safety Standards (FMVSS). Our audit            projects will provide to travelers in New York City.
found that while the review provided evidence          Our recommendations included calling for FTA
that most vehicles sampled complied with FMVSS,        to continue the strong oversight efforts already
the estimates subsequently formulated based on         underway and take action to enhance its oversight
the sample were not statistically valid because        by working with grantees to expeditiously finalize
of how the sample was selected and projected.          a single set of realistic, mutually agreed–to cost
Additionally, the quantitative impacts of key          and schedule estimates that reflect all potential
assumptions are not clearly presented for report       risks. We also recommended that grantees submit
users to effectively evaluate the estimates made.      financial plans that identify sources of local
According to FMCSA, the concerns raised may            funding to cover likely estimated cost overruns.
be valid, but FMCSA does not expect that the           FTA commented that it generally concurred with
reported findings are significantly affected by        our recommendations.
them. Additionally, FMCSA agreed to the two
recommendations that focus on actions FMCSA
needs to take to ensure that any future FMVSS



                                                                            Highway and Transit Programs 19

Audits and Investigations (continued)


INVESTIGATIONS
Three Texas Fuel Distributor Oﬃcials Plead            Missouri Truck Driving School Owner
Guilty to Multi–Million Dollar Fuel Excise            Sentenced to 75 Months Imprisonment for
Tax Fraud                                             His Involvement in CDL Testing Fraud
April 14, 2008                                        Scheme
                                                      June 16, 2008
Sidney B. Baldon II, Tracy D. Diamond, and
Yousef I. Abuteir pled guilty on April 14, 2008, in   Mustafa Redzic, owner of Bosna Truck Driving
U.S. District Court, Houston, Texas, to one count     School (Bosna), was sentenced on June 16, 2008,
of conspiracy in connection with a fraud scheme to    in U.S. District Court, Cape Girardeau,
avoid paying Federal fuel excises taxes. Mr. Baldon   Missouri, to 75 months imprisonment and
owned and operated Mid–Coast International            36 months supervised release, participated in
(MCI), a distributor of kerosene and other fuel       deportation procedures, and fined $17,900. On
products in Houston; Mr. Diamond was an officer       April 2, 2008, Mr. Redzic was found guilty of
of MCI; and Mr. Abuteir purchased products from       bribery, conspiracy, and wire and mail fraud in a
MCI for resale to Houston area retail outlets. The    jury trial. DOT/OIG’s investigation revealed that
three men were charged with conspiracy and tax        in early 2004, Mr. Redzic and Troy Parr, a third
evasion in a July 2007 indictment, which alleged      party tester, devised a scheme whereby Mr. Redzic
that the men avoided paying Federal fuel excise       would send customers to Mr. Parr’s testing facility
tax by falsely representing to a Louisiana refinery   in Sikeston, Missouri, to receive 30–minute
that the fuel products purchased were for export      short tests instead of the average 2–hour tests
to Mexico. The fuel products were actually            necessary to obtain their Commercial Driver’s
transported to locations in the Houston and           Licenses (CDLs). Mr. Parr also falsely completed
Channelview, Texas, areas, where they were            the test results by indicating that each student
mixed with other petroleum–based materials and        passed a complete, three–part Missouri CDL test,
sold at retail fuel stations as taxable motor fuel.   and mailed the results to the State of Missouri
The misrepresentation of the fuel purchases for       Department of Revenue (DOR). Between
export allowed the men to avoid approximately         January 1, 2004, and April 21, 2005, Mr. Redzic
$2.6 million in Federal fuel excise taxes on the      (through his company) earned approximately
$10.7 million of fuel they purchased from the         $1.8 million in tuition from more than
Louisiana refinery from July 2002 to                  600 clients attending Mr. Parr’s testing facility.
November 2003. The three men also face state          DOR has cancelled or suspended all the CDLs
charges for importing motor fuels without             and retested all the CDL holders that were
the required permits. Sentencing for the three        processed through Mr. Redzic and Mr. Parr.
men is scheduled for November 3, 2008. This           Mr. Parr was sentenced on April 24, 2008, to
investigation was being conducted jointly by          1 year and 1 day of incarceration. This is an
DOT/OIG, the Internal Revenue Service/CID, the        ongoing, multi-agency investigation with the
Immigration Customs Enforcement, EPA/CID,             Federal Bureau of Investigation, Joint Terrorism
and the Texas State Comptroller Office.               Task Force; DOT/OIG; U.S. Marshals Service;
                                                      Internal Revenue Service; Missouri State
                                                      Highway Patrol; Postal Inspection Service; and
                                                      St. Louis City and County Police Departments.



20 Semiannual Report to Congress

“Big Dig” Contractor Charged With                     Connecticut State Department of
False Statements on Central Artery/                   Transportation Engineer Pleads Guilty to
Tunnel Contracts                                      Conspiracy for Receiving More Than
June 20, 2008                                         $29,000 from a Highway Contractor
                                                      July 7, 2008
Modern Continental Construction Company,
Inc., (MCCC) was charged with criminal                Christopher Gallucci, a Connecticut Department
information on June 20, 2008, in U.S. District        of Transportation (ConnDOT) Assistant
Court, Boston, Massachusetts, for making false        District Engineer, pled guilty on June 7, 2008, in
statements on its “Big Dig” Central Artery/           U.S. District Court, New Haven, Connecticut, to
Tunnel (CA/T) project billings. MCCC was              conspiracy for corruptly obtaining things of value
the largest contractor on the CA/T project,           from a ConnDOT contractor, with the intent to
with approximately $3 billion in contracts. The       be influenced or rewarded in connection with the
information alleged that MCCC made false              contractor’s business with ConnDOT. Between
statements concerning the quality of construction     October 1997 and April 2007, Gallucci received
work on two contracts—the I-93 mainline               trips, hotel accommodations, meals, and cash from
tunnel and the I-90 connector tunnel. On the          the ConnDOT contractor. In addition, between
I-93 tunnel, MCCC failed to follow slurry wall        October 1997 and October 2003, Gallucci received
construction specifications; but knowingly            periodic payments from a business administered
signed certifications that wall panels—including      by an officer of the ConnDOT contractor. Gallucci
a panel that collapsed in September 2004 and
other panels with defects—were properly built.
On the Connector Tunnel contract, MCCC was
aware in late 1999 that the epoxy it had used to
install concrete anchors for the connector tunnel
ceiling system was not appropriate for long-term
loads, but MCCC continued to use the epoxy and
executed false certifications regarding the quality
of its work. A part of the ceiling panel system
subsequently collapsed on July 10, 2006, killing
one motorist and injuring another. MCCC was
also charged for overbilling the CA/T project
when it falsely categorized apprentice workers as
journeymen on time and materials change orders
for a variety of “Big Dig” contracts. Estimated
losses due to MCCC’s fraud scheme are in excess
of $400,000. This DOT/OIG investigation was
conducted jointly with the Federal Bureau of
Investigation and the U.S. Department of Labor,
with assistance from the Massachusetts Turnpike
Authority.




                                                                          Highway and Transit Programs 21
Audits and Investigations (continued)

admitted to receiving more than $29,000, and he        California Trucking Company Safety
concealed his receipt of the corrupt payments by       Director and Four Drivers Sentenced for
failing to report them on his individual tax returns   Their Role in a False Driver’s Log Book
from 1999 through 2003. The guilty plea will be        Scheme
referred to the Federal Highway Administration         July 21, 2008
for possible suspension action. Gallucci’s
sentencing date has not been set. This investigation   Five defendants were sentenced on July 21, 2008,
was conducted jointly with the Federal Bureau of       in U.S. District Court, Fresno, California, after
Investigation and the Internal Revenue Service. It     pleading guilty for false statements and aiding
was prosecuted by the U.S. Attorney’s Office for the   and abetting related to their false driver’s log
District of Connecticut.                               book scheme. Sukhwinder Singh, Tarsem Singh
                                                       Pahal, Bhinder Singh RAJU, Daljit Singh, and
Two Massachusetts Company Oﬃcials and                  Jaspreet Singh were sentenced for keeping false
Massachusetts Construction Contractor                  driver’s log books while employed as truck
Plead Guilty to Fraud for Their Roles in               drivers for Nijjar Brothers Trucking, Inc., of
Falsiﬁcation of Change Orders on Central               Madera, California. Mr. Sukhwinder Singh,
Artery/Tunnel Project                                  the company’s Safety Director, was sentenced
July 10, 2008                                          to 6 months of home detention and 24 months
                                                       of probation. The remaining defendants were
Kenneth Hartley and Ryan McCourt of McCourt            sentenced to 3 months of confinement, 3 months
Construction (MC) pled guilty on June 10, 2008,        of home detention, and 24 months of probation. In
in U.S. District Court, Boston, Massachusetts, to      addition, all defendants were ordered not to work
conspiracy to commit fraud for misclassifying          in the trucking industry, unless approved by the
apprentice-level trades as journeymen trades, with     Probation Office. During the OIG investigation,
a higher hourly pay rates, on daily reports used       a driver for Nijjar Brothers Trucking, Inc., caused
to compile costs for time and materials (T&M)          a four–vehicle collision, killing a father and his
change orders on the Central Artery/Tunnel             13–year–old son and seriously injuring six other
project. Hartley is the former changes and claims      individuals. The driver, Baljinder Singh, had
administrator for MC. MC pled guilty on
May 20, 2008, to conspiracy to making
false statements regarding Federal Highway
Administration projects. The investigation
disclosed that the fraud, which appeared in
claims submitted between 2002 and 2006,
resulted in a $300,000 loss to the Government.
Sentencing is scheduled for October 1, 2008.
The investigation was conducted jointly by
DOT/OIG, the U.S. Department of Labor/OIG,
and the Federal Bureau of Investigation. The
results of this investigation were furnished to the
Federal Highway Administration for suspension/
debarment consideration.




22 Semiannual Report to Congress

been driving for at least 19 hours. He was later       Former Kentucky Judge Executive is
convicted and sentenced for falsifying his log         Sentenced for Mail Fraud
book entries, for which he served time in jail. The    August 19, 2008
company owners, Surinder S. Nijjar and Amritpal
Singh, were sentenced on June 2, 2008, and ordered     On August 19, 2008, Raymond Smith, a former
to dissolve the company and pay a fine of $50,000      Kentucky Judge Executive was sentenced in U.S
each. The OIG investigation was conducted with         District Court, London, Kentucky, to 30 months
assistance from the Federal Motor Carrier Safety       imprisonment and 3 years supervised release and
Administration and California Highway Patrol.          ordered to pay $110,000 in restitution for mail
                                                       fraud and embezzlement. Between May 2003 and
Florida Men Sentenced for Their Part in CDL            May 2006, Mr. Smith, as Judge Executive, was
Fraud Scheme                                           responsible for the county’s fiscal management,
July 29, 2008                                          including assuring proper approval of the
                                                       county’s expenses. During this time, Mr. Smith
Santos Alamo and Gustavo Soler were sentenced          devised a scheme for his family businesses to
on July 29, 2008, in U.S. District Court, Tampa,       fraudulently obtain Government money through
Florida, to 21 months imprisonment, followed by        county contracts, by awarding the contracts to
2 years supervised release, for their involvement      straw companies that he and his family members
in a Commercial Driver’s License (CDL) fraud           controlled, rather than through the entities listed
scheme. Mr. Alamo and Mr. Soler were arrested          on the original bids. In an effort to prevent the
previously, along with two accomplices, for their      scheme from being detected, Mr. Smith made
role in a CDL fraud scheme and subsequently            a false mailing to the Kentucky State Auditor’s
charged with conspiracy, wire fraud, and the           Office. This case was worked jointly with the
fraudulent production and transfer of identification   Federal Bureau of Investigation with the assistance
documents. The DOT/OIG investigation disclosed         of the Kentucky State Auditor’s Office.
that both men conspired to pay bribes to an
employee of the Pinellas County Tax Collectors         Pennsylvania President of Bridge
Office, Largo, Florida, whose responsibility was       Construction Firm and Vice President of
to monitor CDL applicants and ensure their             Pennsylvania Highway Engineering Firm
qualifications before a CDL was issued. Upon           Plead Guilty to $121 Million DBE Fraud
receiving a monetary bribe, this employee used         August 28, 2008
his employment position to fraudulently issue
CDLs to individuals who did not have the requisite     Romeo P. Cruz, the owner and operator of
training and documentation to support their            Marikina Construction Corporation (Marikina),
qualifications. This DOT/OIG investigation was         and Timothy G. Hubler, former Vice–President of
conducted jointly with the Florida Department of       Field Operations for CDS Engineers, Inc., (CDS)
Law Enforcement, Florida Highway Patrol, and the       pled guilty on August 28 and April 15, respectively,
Florida Department of Highway Safety and Motor         in U.S. District Court, Harrisburg, Pennsylvania,
Vehicles, Division of Driver License.                  to criminal conspiracy charges related to a
                                                       $121 million fraud involving federally funded
                                                       highway bridge beam construction projects
                                                       in Pennsylvania. The criminal information
                                                       alleged that Mr. Cruz, Mr. Hubler, and Dennis
                                                       F. Campbell, former Sales and Marketing Vice


                                                                            Highway and Transit Programs 23

Audits and Investigations (continued)

President of Schuylkill Product, Inc. (SPI),      DOT/OIG has referred Mr. Cruz, Mr. Hubler,
participated in a DBE pass-through scheme that    Mr. Campbell, Marikina, CDS, and SPI to
involved approximately 340 federally funded DBE   the Federal Highway Administration for
subcontracts. The Pennsylvania Department of      suspension and debarment action. This was a
Transportation administered the contracts in      joint investigation with the Federal Bureau of
question between 1993 and 2007. Mr. Campbell      Investigation, the U.S. Department of Labor–Office
previously pled guilty to related criminal        of Inspector General, and the Internal Revenue
charges on conspiracy to commit mail fraud.       Service–Criminal Investigation Division.




24 Semiannual Report to Congress

Rail and Maritime Programs and Economic Analysis




AUDITS
Testimony on Amtrak’s Future Outlook and            efforts to achieve operating reform savings, the
Budgetary Needs                                     causes of on–time performance problems, and a
April 03, 2008                                      review of Amtrak’s capital plan. The Assistant
                                                    Inspector General testified that Amtrak would
Assistant Inspector General for Rail and Maritime   need $475 million in FY09 for cash operating
Program Audits and Economic Analysis,               losses, $675 million for capital spending, and
David Tornquist, testified before the Senate        $266 million for debt service to operate its
Appropriations Subcommittee on Transportation,      nationwide system. The Assistant Inspector
Housing & Urban Development regarding               General stated that Amtrak does not require a
Amtrak’s future outlook and FY 2009 budgetary       FY 09 appropriation to cover retroactive wage costs
needs. The Assistant Inspector General testified    included in its pending labor agreement.
to the need for Amtrak to do more to minimize
its costs and dependence on Federal subsidies       Quarterly Report on Amtrak’s FY 2008
and that its spending initiatives need to make      Operational Reforms Savings and Financial
a demonstrable contribution to its bottom line.     Performance
The Assistant Inspector General drew heavily        April 30, 2008
from ongoing OIG analysis of Amtrak’s financial
performance and labor agreement costs, their        As mandated by the FY 2008 Appropriations
                                                    Act for the Department of Transportation, we


                                                      Rail and Maritime Programs and Economic Analysis 25
Audits and Investigations (continued)

issued our quarterly report on Amtrak’s year–            Review of Amtrak’s Labor Settlement Costs
to–date financial performance and savings from           June 17, 2008
operational reforms to the House and Senate
Appropriations Committee. Amtrak performed               This report represents the results of our assessment
better than it expected financially through              of the costs related to Amtrak’s recently settled
February. Amtrak’s cash operating loss through           labor negotiations and Amtrak’s ability to
February was $158 million, $73 million better than       pay those costs, as requested by the Senate
planned and reflects $3.2 million in operational         Transportation Appropriations Subcommittee
reform savings. Amtrak projects to end the year          staff. We believe Amtrak’s available FY 2009
with a cash operating loss of $444.3 million and a       resources, including its projected cash balance of
cash balance of $286.1 million. Overall, we believe      $293.2 million will be sufficient to fund Amtrak’s
Amtrak may achieve $13.8 million in operational          labor settlement costs in FY 2009 without any
reform savings. Amtrak’s focus is now on overall         supplemental appropriation in FY 2009 based on
budget performance, not implementing sustainable         Amtrak’s current budget projections. The total
operating reforms. As a result, short–term cost          cost of the settlement is estimated to be $435.6
avoidance or unsustainable favorable financial
performance from factors beyond Amtrak’s
control could take the place of sustainable
operating reforms. Amtrak’s current strategic plan
does not include specifics on how it would achieve
its broad financial and operating goals, thereby
making its reform priorities unclear. Amtrak’s
new strategic plan, currently being developed, will
provide an opportunity for Amtrak to indicate
more clearly its reform priorities.

Small Community Air Service Development
Program
May 13, 2008

This report represents the results of our audit of
the Small Community Air Service Development
Program (SCASDP). The objective of our audit
was to determine the effectiveness of the SCASDP
in helping small–hub and non–hub communities
in achieving sustainable and reliable air service.
We found that while most SCASDP grants failed            million, $23.4 million over Amtrak’s March
to fully achieve their objectives, certain grant types   estimate. Since March, these estimates were revised
were more successful than others. Additionally, we       upward to reflect the actual payout amounts of a
found that substantive community participation,          portion of the retroactive pay for the employees of
whether financial or non–financial, increases the        15 of the 19 union negotiating groups, as well as for
likelihood of grant success. Finally, we found that      the recently agreed upon terms of the retroactive
the process communities follow in implementing           payments for the remaining 4 negotiating groups.
their grants can increase the likelihood that their
grants will ultimately succeed.

26 Semiannual Report to Congress

Analysis of the Beneﬁts of High–Speed Rail              fall. This plan is expected to provide direction and
on the Northeast Corridor                               focus to future Amtrak reform activities. Along
June 26, 2008                                           with the strategic plan, Amtrak needs to ensure
                                                        the appropriate management structure to ensure
This report represents the results of our analysis      adequate oversight, management, and reporting on
of the benefits of high speed rail (HSR) on the         its strategic reform initiatives.
Northeast Corridor (NEC). We found that the
benefits from HSR achieving 3–hour service              Actions Taken and Needed To Implement
between Boston and New York and 2 1/2–hour              Mandates and Address Recommendations
service between New York and Washington would           Regarding Rail Safety
exceed the expenditures required to implement           August 26, 2008
it. A sizeable share of air travelers along the NEC
would switch to HSR if it achieved those travel         This report represents the results of our
times, thereby providing some relief to the area’s      audit on certain actions the Federal Railroad
congested airspace. In addition, the investments        Administration (FRA) has taken and needs
required to reach those travel times would              to take to implement congressional mandates
significantly benefit NEC commuter and freight          and address recommendations made by the
rail services. Our analysis also showed that should     National Transportation Safety Board (NTSB)
travel times decrease further, the resulting benefits   and the Office of Inspector General regarding rail
from HSR would grow at an increasing rate.              safety. We found that FRA implemented many
                                                        congressional rail safety mandates over the past
Quarterly Report on Amtrak’s FY 2008                    18 years, but it did not have a centralized process
Operational Reforms Savings and Financial               for tracking and monitoring the implementation of
Performance                                             such mandates. We also found that FRA addressed
August 7, 2008                                          many of NTSB’s rail safety recommendations over
                                                        the past 19 years, but it did not routinely meet
As mandated by the House passed fiscal year             the Department of Transportation’s requirements
(FY) 2008 Appropriations Act for the Department         for providing timely written responses to
of Transportation, we issued our quarterly report to    NTSB. We recommended that FRA establish a
the House and Senate Appropriations Committees          centralized process for documenting, tracking, and
on Amtrak’s savings from operational reforms            monitoring congressional rail safety mandates that
and year–to–date financial performance. Amtrak          includes planned and actual milestones. We also
has realized $19.5 million of the $31.7 million in      recommended that FRA establish procedures to
FY 2008 reform savings it originally anticipated.       ensure that NTSB receives an (1) initial response
Over 65 percent ($12.7 million) of Amtrak’s cost        for each rail safety recommendation within
savings were achieved from productivity savings in      90 days of issuance and (2) implementation
Amtrak’s core operating departments and reflect         timetable for each rail safety recommendation that
lower staffing requirements. Amtrak’s operating         FRA agrees to implement. FRA concurred with
loss through June was $294.1 million, $72.8 million     our audit results and recommendations and agreed
less than budget due largely to better than expected    to take corrective actions.
revenues. Amtrak forecasts it will finish FY 2008
with an operating loss of $456 million, $19 million
less than budgeted. Amtrak is in the process
of developing a new 5 year strategic plan that it
hopes to complete and begin implementing this

                                                          Rail and Maritime Programs and Economic Analysis 27

Audits and Investigations (continued)

Root Causes of Amtrak Train Delays                       and (4) external factors beyond the host railroads’
September 8, 2008                                        control. Our recommendations to the Federal
                                                         Railroad Administration (FRA) focused on
This report represents the results of our audit of the   (1) legislative changes to clarify Amtrak’s
root causes of delays to Amtrak trains operating         preference rights and enhanced enforcement
outside the Northeast Corridor (NEC). We                 of those rights, (2) increased involvement and
found several root causes of Amtrak train delays,        oversight by the FRA to facilitate cooperative
including (1) host railroad dispatching practices,       planning between Amtrak and the host railroads
some of which result in preference violations;           to reduce delays and improve Amtrak’s OTP, and
(2) track maintenance practices and the resulting        (3) expanded funding for rail capacity projects.
speed restrictions; (3) insufficient track capacity;




28 Semiannual Report to Congress

Financial and Information Technology




AUDITS

DOT Privacy Policies and Procedures                  in its PII inventory; however, the office could not
September 9, 2008                                    provide support that no PII is stored in DOT’s
                                                     other 320 systems. We also found that systems
This audit was done as required by the               requiring a System of Records Notice did not
Fiscal Year 2005 Consolidated Appropriations         have one published to notify the public of the
Act for Transportation, Treasury, Independent        intended use of PII and systems did not meet
Agencies, and General Government. We                 minimum security requirements. We also noted
found that DOT has made significant progress         that the departmental privacy officer does not
in addressing its statutory responsibilities by      report directly to the Chief Information and
designating the departmental Chief Information       Privacy Officer. In our opinion, this organization
Officer to be the Chief Privacy Officer and          structure has reduced the visibility of the privacy
establishing a framework for collecting, using,      program and was a major contributing factor to
and securing personally identifiable information     the deficiencies identified in this audit.
(PII). However, tests of sampled PII systems
identified deficiencies in implementation, placing
these personal data at risk. For example, the
departmental privacy office had evaluation
documents for only the 109 systems contained


                                                                   Financial and Information Technology 29

Quality Control Review of the Report on          fairly, in all material respects, the controls that
Controls Over the Enterprise Services Center     have been placed in operation as of June 30, 2008.
September 22, 2008                               In addition, controls are suitably designed and
                                                 were operating effectively except in the areas of
OIG hired a CPA firm to perform this review      logical access and segregation of duties concerning
in accordance with the Statement of Auditing     CASTLE system operations. Specifically, the
Standard No. 70. The audit covered Delphi        CASTLE Database Administrators had access
Financial Management System operations, which    to develop, test, and release system changes into
are used by multiple Federal agencies, and the   production without any independent review and
Consolidated Automation System for Time and      approval. The Acting Deputy Chief Financial
Labor Entry (CASTLE), which is used to support   Officer has committed to implementing corrective
DOT operations only. The audit concluded that    actions.
management’s description of controls presents




30 Semiannual Report to Congress

Acquisition and Procurement




  AUDITS

  Interim Report on Award–Fee Criteria for           was appropriate. Additionally, the performance
  the National Airway Systems Contract               evaluation plan did not include measurable
  May 28, 2008                                       criteria needed to adequately evaluate contractor
                                                     performance, and allowed award–fee payments up
  This interim report represents the results         to 72.5 percent of the award–fee pool for average
  of our audit regarding the Federal Aviation        or below results. Further, a portion of the award–
  Administration’s (FAA) National Airway Systems     fee criteria required the contractor to merely
  Contract as part of our ongoing audit of the       comply with basic contractual requirements. The
  Use of Cost–Plus–Award–Fee (CPAF) contracts        problems cited in this report existed, in part,
  within the Mike Monroney Aeronautical Center       because Aeronautical Center personnel did not
  (Aeronautical Center) and the Department. We       have detailed guidance on how to structure award–
  found that contracting officials did not justify   fee plans to incentivize contractors. FAA officials
  the cost–effectiveness of selecting a CPAF–        agreed to select another contract type more
  type contract by evaluating administrative costs   suitable for obtaining engineering and technical
  versus expected benefits to the Government.        support and revise Aeronautical Center guidance.
  Without this evaluation, the Aeronautical Center
  had no assurance that a CPAF–type contract

                                                                          Acquisition and Procurement 31

Audits and Investigations (continued)

Interim Report on Award–Fee Criteria for              evaluation criteria without clearly defined metrics,
the Transportation Information Project                and vague and conflicting adjectival ratings,
Support Contract                                      could result in inflated contractor performance
August 14, 2008                                       evaluations and inappropriately approved award
                                                      fees. Additionally, contracting officials did not
This interim report represents the results of our     justify the cost–effectiveness of selecting a CPAF–
audit regarding the Volpe National Transportation     type contract by evaluating administrative costs
Systems Center’s Transportation Information           versus expected benefits to the Government,
Project Support (TRIPS) contract as a part of our     thus Volpe had no assurance that a CPAF–type
ongoing audit of the Use of Cost–Plus–Award–          contract was appropriate. Senior Volpe officials
Fee (CPAF) contracts within the Department. We        are implementing actions to meet the intent of
found that the performance evaluation plan did not    our recommendations by clearly identifying
include measurable criteria needed to adequately      measurable award–fee criteria for assessing
evaluate contractor performance. Further, the         contractor performance and reevaluating the
descriptions defining adjectival ratings were vague   use of award–fee contracts for future TRIPS
and inconsistent and did not clearly define the       procurements.
basis for rating performance. The effect of having




32 Semiannual Report to Congress

Department-Wide Issues




INVESTIGATIONS

Former FAA Employee Pleads Guilty to Theft           Missouri Air Traﬃc Controller Pleads Guilty
Related to Government Purchase Card                  to Child Pornography Charges
June 9, 2008                                         August 27, 2008

Sabrina Vines, (GS–14), with FAA, pled guilty on     David Trigg, an air traffic control specialist
June 9, 2008, in U.S. District Court, Washington,    with FAA, pled guilty on August 27, 2008, in
D.C., to one–count information charging her with     U.S. District Court, St. Louis, Missouri, to
theft of public money. DOT/OIG’s investigation       receiving and possessing child pornography.
determined that in 2003, Ms. Vines began using       The DOT/OIG investigation revealed that an air
her Government–issued purchase card to make          traffic controller was accessing child pornography
unauthorized purchases of personal items, such as    through an FAA computer network located in
laptop computers and high–definition televisions.    the FAA air traffic control tower in Chesterfield,
Ms. Vines also used her purchase card for a rental   Missouri. Subsequently, a Federal search warrant
car transaction and a hotel resort transaction       was obtained and forensic examination of a
in Myrtle Beach, South Carolina. The total loss      computer recovered multiple images depicting
associated with the unauthorized transactions        child pornography. Mr. Trigg admitted to using
exceeded $23,000. Ms. Vines resigned from            the FAA computer in the air traffic control tower
FAA on May 23, 2008. Her sentencing has been         to access child pornography before beginning
scheduled for October 7, 2008.                       his shifts. Mr. Trigg was placed on indefinite

                                                                               Department-Wide Issues 33

Audits and Investigations (continued)

suspension from FAA pending criminal action in         pay personal credit card and telephone bills,
the matter. His sentencing date is scheduled for       make mortgage payments, and pay operational
November 14, 2008. This was a joint investigation      expenses for a night club the sisters jointly owned.
with the Federal Bureau of Investigation.              Sentencing for Ms. Heggins–Carter and Ms.
                                                       Janie Heggins is scheduled for December 4, 2008.
Former DOT/OIG Supervisory Auditor                     This was an ongoing, joint investigation with the
Pleads Guilty to Mail Fraud and Conspiracy             Federal Bureau of Investigation.
Charges Involving Fraudulent Check
Scheme
August 28, 2008

Former DOT/OIG supervisory auditor Paulette
Heggins–Carter pled guilty on August 28, 2008,
to mail fraud in U.S. District Court, Dallas, Texas.
Ms. Heggins–Carter’s sister, Janie Heggins, pled
guilty to mail fraud and conspiracy to commit
mail fraud. Ms. Janie Heggins was the former
Controller at ART Holdings, Inc., a financial
services company located in Dallas, Texas. In
May 2008, the sisters were charged with conspiring
to carry out a scheme to defraud ART Holdings of
approximately $469,000, by issuing more than
250 fraudulent checks against the financial
accounts of ART Holdings and its subsidiary
companies. The money was allegedly used to




34 Semiannual Report to Congress

                                                        Work Planned and in Progress
  This section describes significant work projects currently underway or planned by the Office of
  Inspector General that focus on the Department’s Strategic Plan and its core missions of transportation
  safety and mobility. We take into account the need to support DOT’s most critical programs and to
  assure that departmental resources are protected from fraud and waste. In addition, many of our
  projects arise from requests by Administration officials and members of Congress.
  The OIG has developed the following work plan for the period of October 1, 2008, through
  March 31, 2009.

Aviation and Special Programs

Z	 Air Carrier’s Aviation Safety Action                    in its oversight, such as lack of adequate data on
   Programs (ASAP)                                         on-demand operators.

  Evaluate allegations regarding the improper            Z	 Runway Safety Areas
  use of ASAP and determine how reports
  submitted for inclusion into ASAP are evaluated          Evaluate FAA’s processes for identifying,
  and subsequently investigated by air carriers            prioritizing, and funding needed runway safety
  and FAA.                                                 area enhancements and assess FAA’s and airports’
                                                           progress in fulfilling the congressional mandate.
Z	 FAA’s Management and Maintenance of
   Air Traﬃc Control Facilities                          Z	 Review of FAA’s Process for Investigating
                                                            and Reporting Operational Errors and
  Determine if FAA has (1) developed and                    Pilot Deviations
  implemented a comprehensive strategy to
  effectively manage the replacement, repair, and          (1) Determine if any other facilities are
  modernization of its air traffic control facilities      misreporting OEs similar to the misreporting
  and (2) allocated sufficient funds to carry out          identified at DFW TRACON, (2) determine
  those activities.                                        whether FAA has adequate policies and
                                                           procedures in place to ensure the accuracy and
Z	 Review of FAA’s Automatic Dependent                     consistency of reporting OEs, and (3) review
   Surveillance Broadcast (ADS-B) Program                  roles and responsibilities of the ATOS and FAA’s
                                                           Air Traffic Safety Oversight line of business
  Examine key risks to FAA’s successful                    in reporting and investigating OEs and pilot
  implementation of ADS-B and assess the                   deviations.
  strengths and weaknesses of FAA’s proposed
  contracting approach.                                  Z	 Reducing Delays and Improving Customer
                                                            Satisfaction With Air Travel —
Z	 FAA Oversight of On-Demand Operators-                    Congressional Request
   Congressional Request
                                                           (1) Assess delays and performance of the
  Evaluate the differences between FAA                     National Airspace System in light of airline
  regulations and oversight for on-demand                  decisions to reduce flight schedules, (2) analyze
  operators versus larger commercial air carriers;         the delay problem specifically in the New York
  and, identify specific issues that may hinder FAA        region and its corresponding effect across the


                                                                               Work Planned and in Progress 35

Work Planned and in Progress (continued)


  country, (3) examine progress in implementing        Z	 Controller Staﬃng at Los Angeles ATCT,
  the 77 initiatives emphasized by the New York           Southern and Northern California
  Aviation Rulemaking Committee for reducing              TRACONs —Congressional Request
  delays in New York, and (4) highlight impacts
  from airline changes on travelers and airports.        Review controller staffing and related pertinent
                                                         issues at the three facilities.
Z	 FAA Oversight of Use of Airport
   Revenue— Denver International Airport               Z	 Review of Potential Controller Fatigue
                                                          Issues at Chicago O’Hare ATCT and
  Determine whether FAA’s oversight ensures               TRACON, and Chicago Center—
  that the Denver International Airport is using          Congressional Request
  revenues only for airport purposes and is as self-
  sustaining as possible.                                Evaluate key factors that could contribute to
                                                         controller fatigue at Chicago O’Hare ATCT and
Z	 Review of PHMSA’s Special Permits and                 TRACON and Chicago Center and identify what
   Approvals Programs                                    measures FAA has taken to mitigate potential
                                                         controller fatigue at those locations.
  Assess the effectiveness of (1) PHMSA’s policies
  and processes for reviewing and authorizing          Z	 FAA Oversight of Required Navigation
  special permits and approvals, (2) PHMSA’s              Performance Third-Party Agreements
  coordination with the affected Operating
  Administration before issuing any of these             Assess the extent to which FAA is relying
  special authorizations, and (3) PHMSA, FAA,            on third parties for the development of new
  FMCSA, and FRA oversight and enforcement               procedures and determine whether FAA has
  of approved parties’ compliance with terms and         established sufficient mechanisms and has
  conditions of these authorizations.                    sufficient staffing to provide safety oversight of
                                                         the third parties.
Z	 Air Traﬃc Controller Trainee Attrition —
   Congressional Request                               Z	 Follow-Up Review of ATOS—
                                                          Congressional Request
  Determine (1) the attrition rate among newly
  hired air traffic controllers, and (2) the common      Determine whether FAA has (1) completed 

  causes and factors that are contributing to that       timely inspections of air carriers systems for 

  rate.                                                  monitoring critical maintenance programs, 

                                                         (2) tested and validated that these carrier

Z	 Intelligent Transportation Systems Joint              systems are operating effectively, and 

   Program Oﬃce                                          (3) effectively implemented ATOS for the 

                                                         remaining air carriers regulated under 

  To assess the effectiveness of the ITS/JPO in          14 C.F.R. § 121.

  providing program direction, managing funds,
  conducting progress reviews, and evaluating the      Z	 Review of FAA’s Oversight AD
  results of the ITS program.                             Compliance—Congressional Request
                                                         Evaluate FAA’s two-part, special-emphasis
                                                         inspection of air carriers compliance with ADs.
                                                         Specifically, we will evaluate whether FAA

36 Semiannual Report to Congress

  (1) selected a representative sample of ADs for       Z	 Review of the JPDO’s Progress Toward the
  review, (2) thoroughly reviewed air carriers’            Next Generation Air Transportation
  compliance with the selected ADs, and (3) ensured        System-Congressional Request
  that air carriers implemented corrective actions to
  improve AD compliance where needed.                    Review (1) NextGen’s impact on FAA’s Joint
                                                         Planning and Development Office’s partner
Z	 Review of the System–Wide Information                 agencies’ research and capital budgets, (2) FAA’s
   Management Program                                    progress in response to our February 2007
                                                         recommendations, (3) issues that need to be
  Examine (1) the strengths and weaknesses of            addressed to shift NextGen from research and
  FAA’s approach for developing and funding              development to implementation in a timely
  SWIM efforts, and (2) the effectiveness of FAA’s       manner, and (4) the role of external user review
  plan to identify and manage key risks that             and input into key NextGen policy matters.
  could affect a nationwide deployment or limit
  anticipated benefits.


Highway and Transit Programs

Z	 NHTSA’s Oversight of Research and                     Inspection Program (NBIP) and determine 

   Demonstration Projects                                whether FHWA has an effective strategic 

                                                         framework for implementing its oversight.

  Determine whether NHTSA (1) allocated
  research funds and selected projects based on         Z	 Audit of FHWA Funding to Correct
  likelihood to reduce the number and severity             Structurally Deﬁcient Bridges
  of crashes or other targeting strategy;
  (2) systematically evaluated and disseminated          Assess the extent to which states effectively

  results to improve safety; and (3) used risk-based     and efficiently use FHWA funds to correct 

  internal control framework for oversight of            structurally deficient bridges.

  contractors and grantees as a means to prevent
  fraud, waste, and abuse.                              Z	 Follow-up Audit on the Implementation of
                                                           the North America Free Trade
Z	 Audit of FTA’s Oversight of the Access to               Agreement’s Cross-Border Trucking
   the Region’s Core (ARC) Project, Northern               Provisions
   New Jersey
                                                         Assess FMCSA’s ongoing compliance with safety
  Assess the main risks facing this $9 billion           criteria related to Mexico-domiciled motor
  proposed transit project and evaluate FTA’s            carrier operations beyond the commercial zones.
  oversight efforts to ensure that risk mitigation
  strategies are implemented.                           Z	 Assessment of the Central Artery/Tunnel
                                                           Stem to Stern Safety Review – Phase II
Z	 Audit of FHWA’s Oversight of the National
   Bridge Inspection Program                             Continue the effort to ensure that the Central
                                                         Artery/Tunnel Stem to Stern Safety Review is
  Assess the statutory and regulatory basis for          comprehensive and conducted in a complete
  FHWA’s oversight of the National Bridge                and rigorous manner. We will also follow up on
                                                         the corrective actions taken in response to our
                                                                             Work Planned and in Progress 37

Audits and Investigations (continued)

  report Initial Assessment of the Central Artery/
      objectives, and (3) provided for competition
  Tunnel Project Stem to Stern Safety Review.
           in the award of contracts used to expand
                                                         the program, as specified in Section 5508 of
Z	 Audit of the Federal Highway                          SAFETEA LU.
   Administration Transportation
   Technology Innovation and                           Z	 Audit of Implementation of FMCSA’s
   Demonstration (TTID) Program                           Motor Coach Safety Program

  The objectives are to assess whether FHWA
             Determine whether FMCSA is effectively
  TTID program (1) met its surveillance and 
            implementing the six priorities in its National
  data management goals, (2) met the program 
           Motor Coach Safety Program.


Rail and Maritime Programs and Economic Analysis

Z	 Amtrak Quarterly Reports on Operational               Follow-up on Root Causes of Amtrak Train
   Savings                                               Delays
  As mandated by Congress, we will issue                 Expanding on our September 2008 report, we
  quarterly reports to the House and Senate              will determine quantitatively the proportion of
  Committees on Appropriations on our estimates          Amtrak train delays that result from specific
  of the savings accrued as a result of operational      causes, such as freight train interference,
  reforms instituted by Amtrak.                          capacity constraints, and maintenance.

Z	 Causes of Delays on the Amtrak Cascades             Z	 Audit of Transportation —Related Public-
   and Coast Starlight Routes                             Private Partnerships
  Investigate the causes of Amtrak delays and            The objectives are to (1) determine the cost
  service interruptions on the two Amtrak routes.        advantages and disadvantages to the public
                                                         sector of PPP transactions compared to the
Z	 Assessment of Amtrak’s Financial                      more traditional financing of transportation
   Performance                                           infrastructure projects through the issuance
                                                         of debt by government or quasi-government
  Evaluate and analyze Amtrak’s current financial
                                                         entities in the public or municipal bond markets;
  status and the operational factors contributing to
                                                         (2) evaluate the benefits and value realized
  that status.
                                                         through PPPs to both the private and public
Z	 Review of Amtrak’s Five-Year Capital Plan             sector in order to determine the overall equity
                                                         of the transactions; and (3) determine whether,
  Review and assess how effectively Amtrak               and to what extent, PPPs result in operating
  prioritizes and coordinates its capital                efficiencies.
  investments to contribute to the overall business
  goals of the corporation.                            Z	 Rail Service Disruptions
                                                         Examine freight rail service disruptions
                                                         since 2004, with a focus on the timeliness of
                                                         shipments of commodities such as coal, wheat,
                                                         ethanol and lumber.

38 Semiannual Report to Congress

Work Planned and in Progress (continued)


Financial and Information Technology

Z	 FAA’s Correction of Security Weaknesses in         are adequately secured according to minimum
   Air Traffic Control Systems                        security standards to prevent unauthorized
                                                      access to privacy data; and (3) an adequate
  Assess the progress and report on the status        contingency plan exists to ensure continual
  of FAA’s efforts to correct security weaknesses     CDLIS service to state DMV in the event of a
  identified previously in air traffic control        disaster.
  systems—(1) developing a business continuity
  plan to ensure continued en route center          Z	 Security and Privacy Controls over the
  operations and (2) conducting security               Medical Support System
  certification reviews to identify software
  differences between operational air traffic         Determine whether (1) airmen’s personally
  control systems and the baseline systems tested     identifiable information is properly secured
  in the computer laboratory.                         from unauthorized use or access and (2) FAA
                                                      has made progress in establishing a program to
Z	 FAA Web Security                                   flag airmen holding a current medical certificate
                                                      while receiving disability pay.
  Determine whether (1) Web applications used in
  supporting air traffic control (ATC) operations   Z	 Improper Payments in the Airport
  are properly secured to prevent unauthorized         Improvement Program
  access to ATC systems and (2) FAA’s network
  intrusion-detection capability is effective in      Determine whether FAA has adequate controls
  monitoring ATC cyber security incidents.            to prevent and detect improper payments to
                                                      grant recipients of the Airport Improvement
Z	 Implementation of Earned Value                     Program.
   Management System and Security Costs
   Reporting                                        Z	 Quality Control Review of DOT’s Enterprise
                                                       Service Center
  Determine whether (1) the earned value
  management measures included in the Exhibit         Perform a quality control review of the audit
  300 submissions to OMB properly reflect major       by an independent public accounting firm
  IT investment performance, (2) security costs       and determine if the audit was performed in
  included in the Exhibit 300 submissions are         accordance with applicable auditing standards.
  supported, and (3) operating administration
  management actively monitors its major IT         Z	 Quality Control Review of FY 2009 DOT
  investments to meet departmental requirements.       Consolidated Financial Statements
                                                      Perform a quality control review of the audit
Z	 Data Integrity of the Commercial Drivers
                                                      by an independent public accounting firm
   License Information System (CDLIS)
                                                      and determine if the audit was performed in
  Determine whether (1) convictions and other         accordance with applicable auditing standards.
  personal information recorded in CDLIS and
  state DMV systems are accurate, timely, and
  complete; (2) CDLIS and state DMV systems

                                                                         Work Planned and in Progress 39

Work Planned and in Progress (continued)

Z	 Quality Control Review of FY 2009 FAA             Z Quality Control Review of FY 2009 NTSB
   Financial Statements                                Financial Statements
  Perform a quality control review of the audit        Perform a quality control review of the audit
  by an independent public accounting firm             by an independent public accounting firm
  and determine if the audit was performed in          and determine if the audit was performed in
  accordance with applicable auditing standards.       accordance with applicable auditing standards.



Acquisition and Procurement

Z	 Department of Transportation’s Suspension         Z	 Federal Motor Carrier Safety
   and Debarment Policies and Procedures                Administration’s Contract Practices
  Determine whether (1) the Department’s               Determine whether FMCSA’s contract award
  suspension and debarment policies and                and administration practices comply with
  procedures are adequate to ensure that               applicable laws and regulations and follow
  fraudulent or unethical individuals or               agency-specific guidance.
  companies are excluded from contracts, grants,
  and cooperative agreements; and (2) operating      Z	 Control and Use of DOT Purchase Cards
  administrations are effectively implementing
                                                       Determine whether DOT’s internal controls
  the Department’s suspension and debarment
                                                       over purchase cards were adequate to provide
  policies and procedures.
                                                       safeguards against fraud, waste, and abuse.
Z	 Use of Cost-Plus-Award-Fee Contracts
                                                     Z	 Planning for the Department’s Acquisition
   Within DOT
                                                        Workforce Requirements
  Determine whether cost-plus-award-fee
                                                       Determine whether the Department has made
  contracts were effectively designed and
                                                       adequate progress developing a strategic plan
  administered in the best interest of the
                                                       for the acquisition workforce. Specifically we
  Government. Specifically, we will determine
                                                       will determine whether the Department (1) has
  whether (1) award fee plans established adequate
                                                       sufficiently estimated acquisition workforce
  criteria for evaluating contractor performance,
                                                       requirements based on expected acquisitions;
  and (2) the amount of award fees paid to
                                                       (2) accessed the capabilities of the workforce;
  contractors was adequately supported.
                                                       and (3) has made sufficient progress training,
Z	 Review of the Use of Price and Cost Analysis        recruiting, and retaining its workforce.
   for Newly Awarded and Modified Contracts
  Determine whether FAA (1) sufficiently justified
  and properly reviewed and approved the use of
  non-competitive contracts; and (2) adequately
  performed and properly documented price and
  cost analyses applicable to the contract.


40 Semiannual Report to Congress

Statistical Performance Data
Summary of Performance
Office of Inspector General
April 1, 2008 – September 30, 2008
(Dollars in Thousands)

Reports Issued                             42

Recommendations Issued                    145

Congressional Testimonies                   9

Total Financial Recommendations       $224,848

     That Funds Be Better Used        $203,800

     Questioned Costs                  $21,048

Indictments                                70

Convictions                                57

Fines, Restitutions, and Recoveries     $2,667




                                                 Statistical Performance Data 41

Audits
Completed OIG Reports
April 1, 2008 – September 30, 2008
(Dollars in Thousands) *

                                                                                                               Funds to
                                             Number of        Number of                         Unsupported    be Put to
                Type of Review                Reports      Recommendations   Questioned Costs      Costs      Better Use


 Internal Audits
 Performance/Attestation Audits                 19               110                  $0          $4,250        $203,800
 Financial Audits                                1                 0                  $0              $0              $0

 Other OIG Internal Reports                      0                 0                  $0              $0               $0

 Total Internal Audit Reports                   20               110                 $0           $4,250       $203,800

 Grant Audits
 Audits of Grantee Under Single Audit Act       22                35            $16,798               $0              $0

 TOTALS                                         42              145             $16,798           $4,250       $203,800


* The dollars shown are the amounts reported to management. The actual amounts may change during final resolution.

Department of Transportation programs and operations are primarily carried out by the Department’s
own personnel and recipients of Federal grants. Audits by DOT’s Office of Inspector General, as a result,
generally fall into three categories: internal audits of Departmental programs and operations, audits of
grant recipients, and other OIG reports. The table above shows OIG’s results for the 6 months covered by
this report.




42 Semiannual Report to Congress

OIG Reports with Recommendations that Questioned Costs
April 1, 2008 – September 30, 2008
(Dollars in Thousands)


                                                          Number of        Number of         Questioned       Unsupported
                                                           Reports      Recommendations       Costs *            Costs


 A.    For which no management decision had been
       made by the start of the reporting period             25                   32          $20,280                  $0

 B.    Which were issued during the reporting period         18                   32          $21,048              $4,250

       Totals (A+B)                                          43                   64         $41,328              $4,250

 C.    For which a management decision was made
       during the reporting period                           27                   31          $12,079              $4,250
       (i) dollar value of disallowed costs**                22                   24          $10,933              $4,250
       (ii) dollar value of costs not disallowed **          12                   13           $2,621                  $0

 D.    For which no management decision had been
       made by the end of the reporting period               16                   33          $29,249                  $0


* Unsupported costs are also included in the figures shown as questioned costs.

** Includes reports and recommendations where costs were both allowed and disallowed.




                                                                                          Statistical Performance Data 43

OIG Reports with Recommendations that Funds Be Put to Better Use
April 1, 2008 – September 30, 2008
(Dollars in Thousands)

                                                            Number of              Number of          Funds to be Put
                                                             Reports            Recommendations        to Better Use



A.    For which no management decision had been                  4                      5                  $251,728*
      made by the start of the reporting period

B.    Which were issued during the reporting period              2                      2                 $203,800

      Totals (A+B)                                               6                      7                $455,528

C.    For which a management decision was made                   6                      7                 $455,528
      during the reporting period

      (i) dollar value of recommendations                        4**                    4**               $226,308
          that were agreed to by management *

      (ii) dollar value of recommendations                       4**                    5**               $229,220
           that were not agreed to by management *

D.    For which no management decision had been                  0                      0                         $0
      made by the end of the reporting period


* Due to a misclassification of a recommendation, dollar amount will not match previous semiannual.

** Includes reports and recommendations where costs were both allowed and disallowed.




44 Semiannual Report to Congress

OIG Reports Recommending Changes for Safety, Economy or Efficiency
April 1, 2008 – September 30, 2008


                                                                         Number of Reports             Number of Recommendations



A. 	     For which no management decision had been
         made by the start of the reporting period                             26                                59

B.	      Which were issued during the reporting period                         20                               111

         Totals: (A+B)	                                                        46                               170

C. 	     For which a management decision was made
         during the reporting period *                                         37                               131

D.	      For which no management decision had been
         made by the end of the reporting period *                             14                                39


* Includes reports where management both made and did not make a decision on recommendations.



                                  Number of              Number of Reports with              Number              Number of Safety,
                             Total Reports for this   Safety, Economy, or Efﬁciency          of Total          Economy, or Efﬁciency
Audit Type                     Reporting Period            Recommendations               Recommendations         Recommendations


Performance                           19                           17                          91                       88

Financial                              1                           1                           19                       19

Other                                  0                           0                           0                        0

Grants                                22                           2                           35                       4


TOTALS	                               42                           20                         145                      111



                                                                                                    Statistical Performance Data 45
Management Decisions Regarding OIG Recommendations
April 1, 2008 – September 30, 2008
(Dollars in Thousands)

                                                                                                       Funds to be
                                   Number          Number                                                  Put
                                     of              of                 Questioned      Unsupported     to Better
           Description             Reports     Recommendations           Costs *           Costs           Use


 Unresolved as of 4/01/2008          49               96                 $20,280             $0        **$251,728
 Audits with Findings During         36              145                 $21,048         $4,250          $203,800
 Current Period

 Total to be Resolved                85              241                 $41,328        $4,250          $455,528

 Management Decisions:

    Audits Prior Period ‡            40               74                  $7,066             $0          $251,728
    Audits Current Period ‡          22               95                  $5,013         $4,250          $203,800

 Total Resolved                      62              169                 $12,079        $4,250         $455,528

 Aging of Unresolved Audits: ***

    Less than 6 months old           19               50                 $16,035             $0                $0
    6 months – 1 year                3                5                   $1,521             $0                $0
    1 year – 18 months               4                8                  $11,692             $0                $0
    18 months – 2 years              0                0                       $0             $0                $0
    Over 2 years old                 3                9                       $0             $0                $0

 Unresolved as of 09/30/2008         29               72             ****$29,249             $0                $0

* Unsupported costs are also included in the figures shown as questioned costs.


** Considered unresolved if management decisions have not been made on all report recommendations.


‡ Includes reports and recommendations where costs were both allowed and disallowed.


*** Considered unresolved if management decisions have not been made on all report recommendations.


**** Rounding of dollars may affect total.


46 Semiannual Report to Congress
OIG Published Reports
April 1, 2008 – September 30, 2008

DEPARTMENTWIDE
Grant Audits: Audits of Grantee Under Single Audit Act – 3 reports
                                                                                              Focus of Report/
Report            Date                            Title                                      Recommendations

QC-2008-052     05/19/08	    South Carolina Department                      Improve grantee oversight

                             of Transportation

QC-2008-056     06/09/08	    Commonwealth of Massachusetts                  Improve grantee oversight
QC-2008-078     09/16/08	    Wayne County Airport Authority                 Improve grantee oversight


FEDERAL AVIATION ADMINISTRATION
Internal Audits: Performance/Attestation – 8 reports
                                                                                              Focus of Report/
Report           Date                            Title                                       Recommendations

AV-2008-049    04/14/08     Air Traffic Control Modernization FAA           FAA needs to make decisions to determine how to
                            Faces Challenges in Managing Ongoing            achieve NextGen’s capacity-enhancing capabilities;
                            Projects, Sustaining Existing Facilities, and   NextGen is shaping capital funding; Further work is
                            Introducing New Capabilities                    needed to determine NextGen’s impact on existing
                                                                            programs

AV-2008-050    04/24/08     Review of Reported Near Mid-Air Collisions      The five NMACs were independent, unrelated
                            (NMAC) in the New York Metropolitan             events with no root causes. No risks to safety
                            Airspace                                        regardless of actions taken by commercial pilots

FI-2008-054    05/28/08     Interim Report: Award-Fee Criteria For the Put $199 million to better use
                            National Airway Systems Contract (also listed
                            under Office of the Secretary)

AV-2008-055     06/5/08     Review of the Air Traffic Controller Facility   FAA’s facility training programs’ efficiency and
                            Training Program                                quality varies from one location to another.
                                                                            Needs to improve facility training and address key
                                                                            initiatives addressed in 2004



                                                                                           Statistical Performance Data 47

AV-2008-057        06/30/08     Review of FAA’s Safety Oversight of Airlines FAA’s air carrier oversight practices continue to
                                and Use of Regulatory Partnership Programs need improvement. FAA disagreed with two
                                                                             critical recommendations and should reconsider
                                                                             its position

AV-2008-087        09/26/08     Review of FAA’s Short-Term Capacity            Several FAA initiatives were identified to provide
                                Initiatives                                    some relief from delays and boost capacity. OIG will
                                                                               continue to monitor

AV-2008-089        09/30/08     Audit of FTI Transition Risks and its Impact   FAA needs to reassess prior network engineering
                                on Air Traffic Control Operations              cost growth; document the planned schedule for
                                                                               transitioning; calculating the transitions impact to
                                                                               FTI; conducting internal audits at facilities; develop
                                                                               action plan; and review internal procedures

AV-2008-090        09/30/08     Air Carriers’ Outsourcing of Aircraft          FAA needs to develop and implement an effective
                                Maintenance                                    system to determine how much and where critical
                                                                               maintenance is performed

Internal Audits: Financial – 1 report
                                                                                                   Focus of Report/
Report               Date                           Title                                         Recommendations

QC-2008-079        09/22/08    Quality Control Review of the Report on         Management’s description of controls presents
                               Controls Over the Enterprise Services Center    fairly, in all material respects, the controls that have
                               (also listed under Office of the Secretary)     been placed in operation as of June 30, 2008


Grant Audits: Audits of Grantee Under Single Audit Act – 3 reports
                                                                                                   Focus of Report/
Report               Date                           Title                                         Recommendations

QC-2008-067        07/24/08    Commonwealth Ports Authority                    $194,685 questioned

QC-2008-074        09/03/08    Gulfport–Biloxi Regional Airport Authority      $8,002,783 questioned

QC-2008-082        09/25/08    Federated States of Micronesia                  $435,310 questioned
                               National Government




48 Semiannual Report to Congress

FEDERAL HIGHWAY ADMINISTRATION
Grant Audits: Audits of Grantee Under Single Audit Act – 5 reports
                                                                                               Focus of Report/
Report            Date                              Title                                     Recommendations

QC-2008-063     07/24/08   State of Maryland                                  $29,400 questioned

QC-2008-068     07/24/08   Pima County                                        $734,748 questioned

QC-2008-073     09/03/08   City of Nashua (also listed under Federal          $67,200 questioned
                           Transit Administration)

QC-2008-084     09/25/08   State of Louisiana                                 $43,680 questioned

QC-2008-085     09/25/08   Government of Guam                                 $126,170 questioned


FEDERAL MOTOR CARRIER SAFETY ADMINISTRATION
Internal Audits: Performance/Attestation – 2 reports
                                                                                           Focus of Report/
Report            Date                          Title                                     Recommendations

MH-2008-059     07/10/08   Use of Income Derived from the              FMCSA has begun to amend its 1988 operating agreement
                           Commercial Driver’s License Information     with AAMVA to ensure that CDLIS program income is used
                           System for Modernization                    for operating and modernizing the system

MH-2008-081     09/24/08   Review of Canadian/Mexican Commercial FMCSA needs to ensure that any future FMVSS compliance
                           Motor Vehicle Compliance              reviews include appropriate review by a FMCSA statistical
                                                                 expert and that results are clearly presented

FEDERAL RAILROAD ADMINISTRATION
Internal Audits: Performance/Attestation – 2 reports
                                                                                            Focus of Report/
Report            Date                          Title                                      Recommendations

CR-2008-072     08/26/08   Audit of the Federal Railroad               FRA should establish a centralized process for
                           Administration’s Implementation of          documenting, tracking, and monitoring congressional
                           Mandates and Recommendations                rail safety mandates that includes planned and actual
                           Regarding Rail Safety                       milestones

CR-2008-076   09/08/08     Root Causes of AM TRAK Train Delays         Root causes of Amtrak train delays are: railroad
                                                                       dispatching practices, track maintenance practices and
                                                                       external factors beyond the host railroads’ control
                                                                                            Statistical Performance Data 49
FEDERAL TRANSIT ADMINISTRATION
Internal Audits: Performance/Attestation – 3 reports
                                                                                                 Focus of Report/
Report               Date                            Title                                      Recommendations

MH-2008-058         07/9/08    Audit of Federal Transit Administration’s       $4,250,000 unsupported
                               Oversight of Pioneer Valley Transit Authority
                               Electric Bus Cooperative Agreement

AV-2008-071        08/20/08    Report on the City of San Francisco’s Use of    Federal transit funds were not used for
                               Federal Transit Funds                           unauthorized purposes. Controls were adequate to
                                                                               ensure proper use of the funds

MH-2008-086        09/26/08    Baseline Report on the Lower Manhattan          FTA should continue strong oversight efforts.
                               Recovery Projects                               Project grantees will likely have to provide their
                                                                               own funding to complete the projects as designed,
                                                                               or propose to significantly reduce the scope of one
                                                                               or more of the projects

Grant Audits: Audits of Grantee Under Single Audit Act – 12 reports
                                                                                                 Focus of Report/
Report               Date                            Title                                      Recommendations

QC-2008-060        07/24/08    City of Arlington                               $42,196 questioned

QC-2008-061        07/24/08    Tri-County Metropolitan Transportation          $12,640 questioned
                               District of Oregon

QC-2008-062        07/24/08    Washington Metropolitan Area Transit            $829,340 questioned
                               Authority

QC-2008-064        07/24/08    City of Oklahoma City                           $563,107 questioned

QC-2008-065        07/24/08    Attleboro Redevelopment Authority               $76,464 questioned

QC-2008-066        07/24/08    Alabama State Port Authority                    $81,432 questioned

QC-2008-069        09/25/08    Southeastern Pennsylvania Transportation        Improve grantee oversight
                               Authority

QC-2008-073        09/03/08    City of Nashua (also listed under Federal       $67,200 questioned
                               Highway Administration)


50 Semiannual Report to Congress

QC-2008-075   09/03/08   Pioneer Valley Transit Authority                $4,415,806 questioned

QC-2008-080   09/23/08   Massachusetts Bay Transportation Authority      Improve grantee oversight

QC-2008-083   09/25/08   Northern Arizona Intergovernmental Public       $421,323 questioned
                         Transportation Authority

QC-2008-088   09/30/08   Capital Area Transit System                     $721,503 questioned


OFFICE OF THE SECRETARY OF TRANSPORTATION
Internal Audits: Performance/Attestation – 3 reports
                                                                                            Focus of Report/
Report          Date                          Title                                        Recommendations

CR-2008-051   05/13/08   The Small Community Air Service                 SCASDP grants failed to fully achieve their
                         Development Program                             objectives. Substantive community participation,
                                                                         whether financial or non-financial, increases the
                                                                         likelihood of grant success

FI-2008-054   05/28/08   Interim Report: Award-Fee Criteria for the      Put $199 million to better use
                         National Airway Systems Contract (also listed
                         under Federal Aviation Administration)

FI-2008-077    09/9/08   Review of DOT Privacy Policies and Procedures DOT needs to ensure that all systems meet the
                                                                       proper security requirements; privacy officer
                                                                       needs to report to CIO


Internal Audits: Financial – 1 report

                                                                                            Focus of Report/
Report          Date                          Title                                        Recommendations

QC-2008-079   09/22/08   Quality Control Review of The Report on         Management’s description of controls presents
                         Controls Over The Enterprise Services Center    fairly, in all material respects, the controls that have
                         (also listed under Federal Aviation             been placed in operations as of June 30, 2008.
                         Administration)




                                                                                          Statistical Performance Data 51

PIPELINE AND HAZARDOUS MATERIALS SAFETY ADMINISTRATION
Internal Audits: Performance/Attestation – 1 report
                                                                                               Focus of Report/
Report               Date                          Title                                      Recommendations

AV-2008-053         5/21/08    Actions Needed To Enhance                     Further actions are needed as the current situation
                               Pipeline Security                             is far from an “end state” for enhancing the security
                                                                             of the Nation’s pipeline system


RESEARCH AND INNOVATIVE TECHNOLOGY
Internal Audits: Performance/Attestation – 1 report
                                                                                               Focus of Report/
Report               Date                          Title                                      Recommendations

FI-2008-070        08/14/08	   Interim Report on Award-Fee Criteria For The Put $4.4 million to better use
                               Transportation Information Project Support
                               Contract, Volpe Center




52 Semiannual Report to Congress

Other Audit Work Products
April 1, 2008 – September 30, 2008


This section highlights other accomplishments and contributions by Office of Inspector General staff that
extend beyond the legal reporting requirements of the Inspector General Act. These accomplishments are
part of our statutory responsibilities to review existing and proposed legislation and regulations; respond
to congressional and departmental requests for information; and review policies for ways to promote
effectiveness and efficiency and detect and prevent fraud, waste, and abuse.
Examples of Other Work Products completed during this reporting period include:
       t	   Risk-Mitigation Measures on the Leverett Bridge: As a result of our oversight efforts on
             the Stem to Stern safety review, the Commonwealth of Massachusetts has implemented
             risk-mitigation measures for a cracked pier cap in the Leverett Bridge of the Central Artery
             Tunnel Project. These measures include regular monitoring of the crack growth and
             calculating the bridge load ratings. The calculated load ratings revealed that the bridge had
             less load capacity than originally anticipated and resulted in FHWA formally instructing the
             Commonwealth to immediately post the Leverett Bridge from heavier truck traffic until the
             pier cap is repaired. Posting the bridge prevents worsening of the crack due to heavier truck
             traffic and thereby reduces the public’s exposure to structural safety risks. In addition to
             posting the bridge following FHWA’s instructions, the Commonwealth expedited its plans to
             execute the necessary structural repairs for the cracked pier cap.

       t	   0ďDFPGUIF"TTJTUBOU4FDSFUBSZGPS"ENJOJTUSBUJPOThe Senate Committee on
             Appropriations requested the Inspector General review the spending priorities, budget
             justifications, and mission of the Office of the Assistant Secretary for Administration. As a
             result of our review, the Office of the Assistant Secretary took several actions: (1) improved
             the transparency of its funding in recent budget submissions by linking its appropriated
             budget with its Working Capital Fund (WCF) budget, and fully disclosing its available
             funding via reimbursable agreements; (2) developed an asset-replacement plan, and
             agreed to charge customers and replace assets according to this plan; (3) disclosed to the
             Appropriations Committees its intent to retain an operational reserve in the WCF; and
             (4) on September 27, 2008, returned $15.4 million to Treasury, collected as depreciation
             reserves for assets that will not be replaced.




                                                                                Statistical Performance Data 53

        t	 "OBMZTJTPGUIF#FOFĕUTPG)JHI4QFFE3BJMPOUIF/PSUIFBTU$PSSJEPSOn June 26, we
             issued an analysis of the benefits of high speed rail (HSR) on the Northeast Corridor (NEC)
             to the FRA Administrator. Our analysis showed that the benefits from HSR achieving
             3 hour service between Boston and New York and 2 1/2–hour service between New York
             and Washington would exceed the expenditures required to implement it. A sizeable share
             of air travelers along the NEC would switch to HSR if it achieved those travel times, thereby
             providing some relief to the area’s congested airspace. In addition, the investments required to
             reach those travel times would significantly benefit NEC commuter and freight rail services.
             Our analysis also showed that should travel times decrease further, the resulting benefits from
             HSR would grow at an increasing rate.




54 Semiannual Report to Congress

Office of Inspector General Congressional Testimonies
April 1, 2008 – September 30, 2008


  Control No.      Date                        Subject                                               Before


CC-2008-046 04/03/08       Actions Needed to Strengthen FAA’s Safety Committee on Transportation and Infrastructure
                           Oversight and Use of Partnership Programs U.S. House of Representatives

CC-2008-061 04/03/08       Amtrak’s Future Outlook and                   Committee on Appropriations, Subcommittee on Transportation,
                           Budgetary Needs                               Housing and Urban Development, and Related Agencies
                                                                         U.S. Senate

CC-2008-058 04/09/08 Status Report on Actions Underway                   Committee on Transportation and Infrastructure,
                     to Address Flight Delays and                        Subcommittee on Aviation
                     Improve Airline Customer Service                    U.S. House of Representatives

CC-2008-067 04/10/08       Key Safety Challenges Facing the              Committee on Commerce, Science, and Transportation,
                           Federal Aviation Administration               Subcommittee on Aviation Operations, Safety, and Security
                                                                         U.S. Senate

CC-2008-070 04/17/08       Key Safety and Modernization Challenges       Committee on Appropriations, Subcommittee on Transportation,
                           Facing the Federal                            Housing and Urban Development, and Related Agencies
                           Aviation Administration                       U.S. Senate

CC-2008-056 06/11/08       Key Issues Facing the Federal                 Committee on Transportation and Infrastructure,
                           Aviation Administration’s                     Subcommittee on Aviation
                           Controller Workforce                          U.S. House of Representatives

CC-2008-090 06/25/08 Actions Needed To Enhance                           Committee on Transportation and Infrastructure Subcommittee
                     Pipeline Security                                   on Railroads, Pipelines, and Hazardous Materials
                                                                         U.S. House of Representatives

CC-2008-118     09/11/08   Status of FAA’s Efforts to Develop the Next   Committee on Science and Technology
                           Generation Air Transportation System          U.S. House of Representatives

CC-2008-120     09/11/08   FAA’s Certification of the Eclipse            Committee on Transportation and Infrastructure,
                           EA-500 Very Light Jet                         Subcommittee on Aviation
                                                                         U.S. House of Representatives

                                                                                                   Statistical Performance Data 55

Unresolved Recommendations Over 6 Months Old

                      Cited in Semiannual Report for October 1, 2004 – March 31, 2005
Terminal Modernization: FAA Needs to                    AV-2005-016       11/23/04
Address Its Small, Medium, and Large Sites
Based on Cost, Time, and Capability

                     Cited in Semiannual Report for April 1, 2005 – September 30, 2005
Chicago’s O’Hare Modernization Plan                     AV-2005-067       07/21/05

                      Cited in Semiannual Report for October 1, 2005 – March 31, 2006
Air Carriers Use of Non-Certificated                    AV-2006-031       12/15/05
Repair Facilities

                     Cited in Semiannual Report for April 1, 2007 – September 30, 2007
Amtrak Board of Directors                               CR-2007-074       09/14/07

South Carolina Department of Transportation             QC-2007-055       07/18/07

Washington Metropolitan Area Transit Authority          QC-2007-057       07/18/07

State of Minnesota                                      QC-2007-058       07/18/07

                       Cited in Semiannual Report for October 1, 2007 – March 31, 2008
Oglala Sioux Tribe                                      QC-2008-037       03/06/08

Assessment of FAA’s Risk-Based System for               AV-2008-026       02/26/08
Overseeing Aircraft Manufacturer’s Suppliers

Federated States of Micronesia National                 QC-2008-019       12/19/07




56 Semiannual Report to Congress

Application of Audit Resources by Operating Administration
April 1, 2008 – September 30, 2008


                                                                 MARAD

                                                           FRA    1%

NOTES:
                                                                           FHWA
                                                           6%
t    FTPVSDFTTIPXOGPS045JODMVEF
     3                                              RITA                           11%
     time spent performing audits of                3%
     the DOT Consolidated Financial            NHTSA
     Statements (which includes all                                                          PHMSA
                                                4%                                             2%
     Operating Administrations) and
     the Use of Award Fees Contracts
     Within the Department.                                                                       FTA
t    FTPVSDFTTIPXOGPS'3"JODMVEF
     3                                                                                            6%
     time spent performing audits of        OST
     the National Railroad Passenger        13%                                                    OTHER
     Corporation.                                                                                   1%
t    FTPVSDFTTIPXOBTi0UIFSw
     3
     were expended on the National
     Transportation Safety Board,
     Department-wide audits, and
     general Single Audit Act activities.   FMCSA
                                               SA
                                              %
                                             9%



                                                                                          FAA
                                                                                          44%




Required Statements for Semiannual Report

The Inspector General Act requires the Semiannual Report to carry explanations if, during the reporting
period, departmental management significantly revised management decisions stemming from an
audit. OIG follows up on audits reported in earlier semiannual reports. During this reporting period,
departmental management did not report any significant revisions to management decisions.

The Act also requires descriptions of any significant decisions that departmental management made
regarding an audit with which OIG disagrees. When the reporting period closed, there were no such
significant decisions with which OIG disagreed.


                                                                             Statistical Performance Data 57

Investigations
Judicial and Administrative Actions
April 1, 2008 – September 30, 2008

                     Indictments:                                         70
                     Convictions:                                         57
                     Years Sentenced:                                     35
                     Years Probation:                                     32
                     Years Supervised Release:                            39
                     Community Service Hours:                          3,750
                     Employee Terminations:                                4
                     Employee Resignations/Retirements:                    4
                     Cert/License/Permit revoked/terminated:               4
                     Debarment/Suspensions:                               14
                     Decertified - State:                                  4
                     Termination of Contract:                              1
                     Federal Funding/Participation Terminated:             1
                     Reduction in Federal Funding:                         1
                                             Financial Impact

                      Fines:                                        $295,674
                      Restitution:                                $2,269,261
                      Federal Recoveries:                            $27,491
                      State Recoveries:                             $73,002
                      Administrative Recoveries:                     $1,200
                      Total:                                     $2,666,628





                                                                       Statistical Performance Data 59

Profile of All Pending Investigations as of September 30, 2008
                                                                                Types of Cases
                                                    Number      Contract/    Employee    Aviation   Motor     HazMat   Qul   Other
                                                    of Cases   Grant Fraud   Integrity    Safety    Carrier            Tam
                                                                                                    Safety


Departmentwide                                         2           1            1          0          0        0       0      0
Federal Aviation Administration                       156          12           58         71         0         5      1      9
Federal Highway Administration                        101          92            0          0          0        0      2      7
Federal Motor Carrier Safety                           53           0           4           0         34       10      0      5
Federal Railroad Administration                        4            0           0          0          0        2       0      2
Federal Transit Administration                        23           22           0          0          0        0       0      1
Maritime Administration                                5           1            2          0          0        1       1      0
National Highway Traffic Safety                         6           1            1          0          0        0      0      4
Office of the Inspector General                         1           0            1          0          0        0      0      0
Office other Secretary of Transportation               8            1           5          0          0        0       0      2
Pipeline and Hazardous materials Safety                18           0            1          0          0       16      0      1
Research and Innovative Technology Administration      3            0           3          0          1        0       0      0

Totals                                               380         130           76          71        34        34      4     31


Percent of Total:                                   100%         35%          20%        19%        9%         9%      1%    8%





60 Semiannual Report to Congress

Application of Investigative Project Hours by Operating Administration
April 1, 2008 - September 30, 2008
                                               PHMSA
                                         OST     2%
                                         10%
                                 NHTSA
                                   3%
                             FMCSA
                              9%                                  FAA
                                                                  33%
                        MARAD
                         2%
                         FTA
                         7%

                          FRA
                          2%




                                     FHWA
                                      32%


Application of Investigative Project Hours by Priority Area
April 1, 2008 - September 30, 2008
                                      OTHER            AVIATION SAFETY
                                       13%                   15%

                   MOTOR CARRIER
                       6%


                    HAZMAT
                                                                         EMPLOYEE INTEGRITY
                      5%
                                                                                12%




                                                               CONTRACT/GRANT FRAUD
                                                                       49%




                                                                         Statistical Performance Data 61

                                 Mission and Organization

The Office of Inspector General for the Department of Transportation was created by Congress through
the Inspector General Act of 1978 (Public Law 95–452). The Act sets several goals for OIG:

         To conduct or supervise objective audits and investigations of the Department’s programs
           and operations;

         To promote economy, effectiveness, and efficiency within the Department;

         To prevent and detect fraud, waste, and abuse in the Department’s programs;

         To review existing and proposed laws or regulations affecting the Department and make
           recommendations about them;

         To keep the Secretary of Transportation and Congress fully informed about problems in
           departmental programs and operations.


                                      OIG FY 2008 ACTUAL OBLIGATIONS
OIG is divided into two major                TOTAL: $73,444,558
units and six support units.
                                                                        
The major units are the Office
                                                                   $9,125,715
of the Principal Assistant
Inspector General for Auditing
and Evaluation and the Office
of Assistant Inspector General
for Investigations. Each has                              	
                                                    $4,655,750
headquarters staff and field staff.
The support units are the Office           
of Legal, Legislative and External                 $3,079,550
Affairs; the Office of Human                             

Resources; the Office of Budget                     $2,698,125
and Financial Management;
the Office of Information                
Technology Services; the                              $280,450
Office of Administration and            
Procurement Services; and the                       
Office of Quality Assurance                        $53,604,968
Reviews/Internal Affairs.

                                                                                Mission and Organization 63

                                                                                     U.S. Department of Transportation

                                                                                        Ofﬁce of Inspector General



                                                                                                   Inspector General




64 Semiannual Report to Congress

                                                                                                        Deputy
                                                                                                   Inspector General




                                                                                                                                                       Assistant Inspector
                                                                                Assistant Inspector                   Principal Assistant
                                           Assistant Inspector                                                                                          General for Legal,
                                                                              General for Washington                  Inspector General
                                         General for Investigations                                                                                      Legislative, and
                                                                              Investigative Operations            for Auditing & Evaluation
                                                                                                                                                         External Affairs




                                                                                                  Assistant Inspector            Assistant Inspector
                                     Assistant Inspector            Assistant Inspector                                                                      Assistant Inspector
                                                                                                      General for                 General for Rail &
                                    General for Aviation &        General for Financial &                                                                   General for Acquisition
                                                                                                  Highway & Transit              Maritime Audits and
                                      Special Programs            Information Technology                                                                       & Procurement
                                                                                                      Programs                   Economic Analysis




                                       Deputy Assistant                                             Deputy Assistant
                                      Inspector General                                            Inspector General
                                        for Aviation &                                               for Highway &
                                      Special Programs                                              Transit Programs
                                                     Contacts

*OTQFDUPS(FOFSBM
Calvin L. Scovel III ...................................................................................(202) 366-1959


%FQVUZ*OTQFDUPS(FOFSBM
Theodore P. Alves.................................................................................... (202) 366-1992


"TTJTUBOU*OTQFDUPS(FOFSBMGPS-FHBM-FHJTMBUJWFBOE&YUFSOBM"ČBJST
Brian A. Dettelbach ................................................................................. (202) 366-8751


1SJODJQBM"TTJTUBOU*OTQFDUPS(FOFSBMGPS"VEJUJOHBOE&WBMVBUJPO
David A. Dobbs .........................................................................................(202) 366-1427


"TTJTUBOU*OTQFDUPS(FOFSBMGPS*OWFTUJHBUJPOT
Vacant ........................................................................................................ (202) 366-1967


"TTJTUBOU*OTQFDUPS(FOFSBMGPS8BTIJOHUPO*OWFTUJHBUJWF0QFSBUJPOT
Rick Beitel ................................................................................................. (202) 366-1972


"TTJTUBOU*OTQFDUPS(FOFSBMGPS"WJBUJPOBOE4QFDJBM1SPHSBNT
Lou Dixon .................................................................................................(202) 366-0500


%FQVUZ"TTJTUBOU*OTQFDUPS(FOFSBMGPS"WJBUJPOBOE4QFDJBM1SPHSBNT
Matt Hampton..........................................................................................(202) 366-0500


"TTJTUBOU*OTQFDUPS(FOFSBMGPS'JOBODJBMBOE*OGPSNBUJPO5FDIOPMPHZ"VEJUT
Rebecca C. Leng ....................................................................................... (202) 366-1488


"TTJTUBOU*OTQFDUPS(FOFSBMGPS)JHIXBZBOE5SBOTJU1SPHSBNT
Joe Come ................................................................................................... (202) 366-5630


%FQVUZ"TTJTUBOU*OTQFDUPS(FOFSBMGPS)JHIXBZBOE5SBOTJU1SPHSBNT
Rosalyn Millman ..................................................................................... (202) 366-5630


"TTJTUBOU*OTQFDUPS(FOFSBMGPS3BJMBOE.BSJUJNF"VEJUTBOE&DPOPNJD"OBMZTJT
David Tornquist ....................................................................................... (202) 366-9970


"TTJTUBOU*OTQFDUPS(FOFSBMGPS"DRVJTJUJPOBOE1SPDVSFNFOU
Mark Zabarsky ......................................................................................... (202) 366-5225


                                                                                                                                  Contacts 65

                 Abbreviations
AF-OSI   Air Force Office of Special Investigations
AICPA    American Institute of Certified Public Accountants
AIP      Airport Improvement Program
AIR-21   Aviation Investment and Reform Act for the 21st Century
AAAE     American Association of Airport Executives
ASAP     Aviation Safety Action Programs
ASDE-X   Airport Surface Detection Equipment-Model X
ATC      Air Traffic Control
ATO      Air Traffic Organization
ATOS     Air Transportation Oversight System
CDLIS    Commercial Drivers License Information System
CDL      Commercial Drivers License
CFO      Chief Financial Officer
CID      Criminal Investigations Division
CIO      Chief Information Officer
DBE      Disadvantaged Business Enterprise
DCAA     Defense Contract Audit Agency
DCIS     Defense Criminal Investigative Service
DHS      Department of Homeland Security
DOJ      Department of Justice
DOT      Department of Transportation
EPA      Environmental Protection Agency
FAA      Federal Aviation Administration
FBI      Federal Bureau of Investigation
FHWA     Federal Highway Administration
FISMA    Federal Information Security Management Act
FMCSA    Federal Motor Carrier Safety Administration
FRA      Federal Railroad Administration
FTA      Federal Transit Administration
FTI      FAA Telecommunications Infrastructure
FY       Fiscal Year
GAO      Government Accountability Office
HAZMAT   Hazardous Material
HTF      Highway Trust Fund

                                                                   Abbreviations 67
            IG                      Inspector General
            IRB                     Investment Review Board
            IRS                     Internal Revenue Service
            IT                      Information Technology
            JPDO                    Joint Planning and Development Office
            MARAD                   Maritime Administration
            MCSIA                   Motor Carrier Safety Improvement Act
            MOU                     Memorandum of Understanding
            MTA                     Metropolitan Transportation Authority
            NAFTA                   North American Free Trade Agreement
            NATCA                   National Air Traffic Controllers Association
            NAS                     National Airspace System
            NCIS                    Naval Criminal Investigative Service
            NDR                     National Driver Register
            NHTSA                   National Highway Traffic Safety Administration
            NTSB                    National Transportation Safety Board
            OA                      Operating Administration
            OCIO                    Office of Chief Information Office
            OIG                     Office of Inspector General
            OMB                     Office of Management and Budget
            OPM                     Office of Personnel Management
            OSI                     Office of Special Investigations
            OST                     Office of the Secretary of Transportation
            PCIE                    President’s Council on Integrity and Efficiency
            PHMSA                   Pipeline and Hazardous Materials Safety Administration
            QCR                     Quality Control Review
            RITA                    Research and Innovative Technology Administration

            SAFETEA-LU              Safe, Accountable, Flexible, Efficient Transportation

                                    Equity Act: A Legacy for Users

            SAS-70                  Statement on Auditing Standards Number 70
            SafeStat                Safety Status Measurement System
            SLSDC                   St. Lawrence Seaway Development Corporation
            TEA-21                  Transportation Equity Act for the 21st Century




68 Semiannual Report to Congress

Hotline to report fraud, waste, and abuse:
         Phone: 800–424–9071
            Fax: 540–373–2090
         E-mail: hotline@oig.dot.gov
    OIG Web site: http://www.oig.dot.gov




        U.S. Department of Transportation
             Office of Inspector General
            1200 New Jersey Avenue, SE
              Washington, D.C. 20590
